Report Fraud, Waste, and Abuse

 1-800-269-0271




                                        Social Security Administration
    www.socialsecurity.gov/oig
                                    Office of the Inspector General
     SSA OIG Pub. No. 85-007
                                 Semiannual Report to Congress
    Published November 2006
                                      A Constant Purpose
                                    April 1, 2006 through September 30, 2006
        Social Security Administration
        Office Of The Inspector General
                                                                                    How to Report Fraud
                                                                          The SSA OIG Fraud Hotline offers a means for you to
                                                                         provide information on suspected f raud, waste, and abuse.
                                                                          If you know of current or potentially illegal or improper
                                                                             activities involving SSA programs or personnel, we
                       Mission Statement                                   encourage you to contact the SSA OIG Fraud Hotline.
By conducting independent and objective audits, evaluations
and investigations, we inspire public confidence in the integrity
and security of SSA’s programs and operations and protect them                      Call	1-800-269-0271
against fraud, waste and abuse. We provide timely, useful and
reliable information and advice to Administration officials,                      Write	 Social Security Administration
Congress and the public.                                             	                   Office of the Inspector General
                                                                     	                   Attention: SSA Fraud Hotline
                        Vision and Values                            	                   P. O. Box 17768
                                                                     	                   Baltimore, MD 21235
We strive for continual improvement in SSA’s programs,
operations and management by proactively seeking new ways                            Fax	410-597-0118
to prevent and deter fraud, waste and abuse. We commit to
integrity and excellence by supporting an environment that
provides a valuable public service while encouraging employee                  Internet   www.socialsecurity.gov/oig
development and retention and fostering diversity and
innovation.                                                              To obtain additional copies of this report please visit our
                                                                                   website at www.socialsecurity.gov/oig


                                                                                           SSA Pub. No. 85-007




    Cover image courtesy of Jennifer Guzman, www.f7photography.com
 April 1, 2006 thru September 30, 2006	                        SSA Office of the Inspector General




A Message from the Inspector General

In 1870, British Prime Minister Benjamin Disraeli voiced his belief
that “The secret of success is constancy to purpose.” This notion’s
applicability to the work of the Social Security Administration’s
Office of the Inspector General lies in the mission set out for us
by Congress, the skill of our employees, and the importance of our
work.
In recent years, challenges that could never have been anticipated
when the Inspector General Act became law in 1978, nor even
when the Office of the Inspector General was created in 1995,
have confronted our organization and other Inspectors General
throughout the Federal Government. Acts of terrorism and natural
disasters brought with them a broader mandate and a heightened
urgency, but we have never allowed these, or other challenges we
have faced, to distract us from our constant purpose—preventing
and detecting fraud, waste, and abuse in Social Security programs,
and in the operation of the Agency that administers those programs.
Our accomplishments of the past 6 months and of Fiscal Year 2006 are highlighted and
summarized in these pages, and reflect our own constancy of purpose. I encourage you to
review the information contained in this report, and the much larger volume of information
available on our website. This information makes clear the talent and dedication of our
employees, the commitment Congress has made to our success, the value of our partnership
with the Social Security Administration, and both the enormity and importance of our task.
We are aware every day that our constant purpose is more than a mission—it is a promise
that the United States made to its citizens more than 70 years ago when the Social Security
program was established, and we take great pride in being a key contributor to keeping that
promise.
Sincerely,

S
Patrick P. O’Carroll, Jr.
Inspector General




                                                                                                     
    Semiannual Report to Congress	   April 1, 2006 thru September 30, 2006





April 1, 2006 thru September 30, 2006	                                      SSA Office of the Inspector General




                  Semiannual Report to Congress
                       A Constant Purpose



         Contents
             A Message from the Inspector General...............................1

             Executive Summary.............................................................5

             Introduction to Our Organization......................................7

             Impact .................................................................................8

             Value . ................................................................................22

             People.................................................................................29

             Reporting Requirements and Appendices.........................35

             Glossary of Acronyms .......................................................54




                                                                                                                  
             Semiannual Report to Congress	   April 1, 2006 thru September 30, 2006




  •  Executive Summary
 April 1, 2006 thru September 30, 2006	                           SSA Office of the Inspector General




Executive Summary
With its creation on March 31, 1995, this Office of the Inspector General (OIG) was given
a mission to “conduct and supervise audits and investigations relating to the programs and
operations” of the Social Security Administration (SSA). Despite many recent challenges that
have, by necessity, broadened OIG’s original mandate, our dedication to this “constant purpose”
has never wavered. With this report, by which we proudly present our accomplishments
during the past 6 months and for all of Fiscal Year (FY) 2006, OIG has placed a renewed
focus on assuring the integrity and reliability of the Social Security programs upon which so
many Americans depend for their economic security. In protecting and improving these vital
programs, we also continue to contribute in many ways to the Nation’s homeland security.
Our noteworthy achievements are documented in the sections of this report that correspond
to the three major areas of our Strategic Plan:
• Our impact on SSA’s programs and operations;
• The value we provide to SSA, the Congress, and the public; and
• The initiatives we undertake to enhance the work experience of our people.
Our combined efforts in the areas of audit, investigation, and legal work generated a positive
return on investment. The following information summarizes our achievements from
April 1, 2006 – September 30, 2006.
Our auditors issued 64 reports with recommendations identifying over $1.2 billion in
questioned costs and over $2.5 billion in Federal funds that could be put to better use. Our
audit work covered areas ranging from estimating overpayment rates in SSA’s disability
programs to evaluating procedures for issuing replacement Social Security cards to prisoners.
We reviewed controls over physical security at SSA’s remote hearing sites and identified errors
in self-employment income captured in the Earnings Suspense File (ESF). We evaluated the
financial impact of SSA’s policy of continuing payments to Supplemental Security Income
(SSI) recipients who are appealing a medical cessation decision. We also reviewed SSA’s
controls over the assignment of nonwork Social Security numbers (SSN) as well as SSNs
assigned to foreign students who are authorized to work on college campuses.
Our investigators reported almost $153 million in investigative accomplishments: more
than $28 million in SSA recoveries, restitution, fines, settlements, and judgments, and
over $124 million in projected savings from investigations resulting in the suspension or
termination of benefits. We closed 5,006 criminal and administrative investigations, resulting
in 2,349 arrests and indictments and 1,621 convictions, civil monetary penalties (CMP),
and apprehensions of illegal aliens. In addition, our investigators took part in multi-agency
investigations that resulted in over $40 million in savings, restitution and recoveries for other
agencies.
We built on the success of the Cooperative Disability Investigations (CDI) program, a joint
effort of the OIG, SSA, State Disability Determination Services (DDS), and State and local
law enforcement personnel, utilizing 19 CDI units located in 17 States to obtain sufficient



                                                                                         Executive Summary  •  
             Semiannual Report to Congress	                                 April 1, 2006 thru September 30, 2006




             evidence to identify and resolve questions of fraud in SSA disability claims. During this reporting
             period, our CDI teams’ efforts resulted in over $85 million in SSA program savings.
             Our efforts to identify fugitive felons and parole and probation violators via automated data
             matches between SSA’s beneficiary rolls and a number of Federal and State warrant databases
             contributed to the arrest of over 6,300 fugitives during this reporting period—and a total of
             over 44,500 arrests since the program’s inception in August 1996.
             Included in the investigative accomplishments is more than $1.6 million in penalties and
             assessments that our attorneys imposed through our CMP program. During this reporting
             period, we initiated 182 cases involving false statements or representations made in connection
             with obtaining or retaining benefits or payments under Titles II and XVI of the Social Security
             Act (the Act) (Section 1129 cases). In addition, we processed seven complaints and closed
             five cases dealing with advertising and communication prohibited by Section 1140 of the Act
             because of misleading use of SSA’s program words, symbols, or emblems.
             Also, during this reporting period, we continued to target those who misused SSNs in an attempt
             to defraud the Federal Government’s assistance programs in the wake of the devastation wrought
             by Hurricanes Katrina and Rita. As part of the Department of Justice’s (DOJ) Hurricane
             Katrina Fraud Task Force, our Office of Investigations opened 55 investigations and secured
             28 indictments and 15 convictions of individuals for SSN misuse and hurricane-related fraud.
             In addition, our Office of Audit evaluated SSA’s service delivery to individuals affected by
             the hurricanes as well as the Agency’s plans to ensure that payments made under emergency
             procedures were appropriate and properly safeguarded.
             The OIG is always striving to identify and address new challenges related to Social Security
             programs and operations. However, we always maintain a focus on our constant purpose of
             protecting the most vulnerable Americans who rely on those programs. We believe that this
             focus is the secret to our continued success, as reflected in our significant accomplishments
             during FY 2006.




  •  Executive Summary
 April 1, 2006 thru September 30, 2006	                                  SSA Office of the Inspector General




Introduction to Our Organization
SSA OIG is comprised of the Immediate Office of the Inspector General and four major components: the
Office of Audit, the Office of Investigations, the Office of the Chief Counsel to the Inspector General, and
the Office of Resource Management.
Immediate Office of the Inspector General (IO)
IO provides the Inspector General with staff assistance on the full range of his responsibilities. IO staff
provides liaison services with all agencies sharing an interest or a role with OIG and assures coordination with
congressional committees, SSA, the Social Security Advisory Board and the President’s Council on Integrity
and Efficiency (PCIE). The Office of Quality Assurance and Professional Responsibility (OQAPR), part
of the IO, is responsible for two critical functions—it conducts exhaustive reviews of each of the OIG’s
component offices to ensure compliance with Federal laws and regulations, Agency policies, and relevant
professional standards. It also performs OIG’s Professional Responsibility function, conducting thorough
and timely investigations should allegations of misconduct be lodged against an OIG employee.
Office of Audit (OA)
OA conducts and supervises financial and performance audits of SSA programs and operations and makes
recommendations to ensure that program objectives are achieved effectively and efficiently. Financial audits
assess whether SSA’s financial statements fairly present SSA’s financial position, results of operations, and
cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations, and other projects on
issues of concern to SSA, the Congress, and the general public.
Office of Investigations (OI)
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and mismanagement in
SSA programs and operations. This includes wrongdoing by applicants, beneficiaries, contractors, and third
parties, as well as by SSA employees while performing their official duties. This office serves as OIG’s liaison
to the DOJ on all matters relating to the investigation of SSA programs and personnel. OI also conducts
joint investigations with other Federal, State, and local law enforcement agencies.
Office of the Chief Counsel to the Inspector General (OCCIG)
OCCIG provides independent legal advice and counsel to the Inspector General on a wide range of issues,
including statutes, regulations, legislation, and policy directives. OCCIG advises the Inspector General on
investigative procedures and techniques, as well as on legal implications and conclusions to be drawn from
audit and investigative material. OCCIG also administers the CMP program. This office manages OIG’s
external and public affairs program, preparing OIG publications and handling congressional, media and
public requests for information.
Office of Resource Management (ORM)
ORM provides administrative and management support to the Inspector General and OIG components.
ORM formulates and executes the OIG budget and confers with the Office of the Commissioner, the
Office of Management and Budget (OMB) and the Congress on budget matters. ORM is responsible for
strategic planning and performance reporting, and facility and property management. ORM develops and
maintains OIG’s administrative and management policy and procedures and performs all human resource
support activities for OIG. ORM also plans, designs, develops, tests, implements, and maintains hardware,
software, and telecommunications networks to support OIG’s mission.
                                                                             Introduction to Our Organization  •    
                Semiannual Report to Congress	                                 April 1, 2006 thru September 30, 2006




                Impact
                OIG is committed to enhancing SSA’s effectiveness and efficiency through our investigations,
                audits, and legal activities. Through our best efforts, we strive to have maximum impact on
                SSA’s programs and operations in order to best assure the continued integrity and reliability
                of the Social Security programs.
                During this reporting period, we completed many audits, investigations, and legal initiatives,
                covering major SSA program and management areas, which had a significant impact on the
                deterrence and detection of fraud, waste, and abuse. The summaries presented below are
                representative of our work in this area.

                Audit Impact Initiatives
                OA contributes to this strategic goal by conducting and supervising comprehensive financial
                and performance audits of SSA’s programs and operations and by making recommendations
                to maximize the effective operations of the Social Security programs. These audits, along with
                short-term management and program evaluations, focus on those SSA programs and activities
                most vulnerable to fraud and abuse.

                Benefit Payment Issue: Overpayments in SSA’s Disability Programs
                We conducted an audit based on a request from Senator Charles Grassley to produce an
                improper payment rate for SSA’s disability programs. Senator Grassley further requested an
                analysis of improper payment prevalence in four specific diagnosis groups: mental disorders;
                musculoskeletal system diseases; endocrine, nutritional and metabolic diseases; and injuries.
                First, based on a sample of 1,532 cases, we estimated overpayments that occurred between
                October 2003 – November 2005, as a result of conditions that existed as of October 2003 or
                earlier. We estimated that SSA detected, through its normal processes, overpayments totaling
                about $1.9 billion but had not yet detected additional overpayments totaling approximately
                $3.2 billion. Next, we developed overpayment rates. Based on available information, we estimated
                that the overpayment rate was between 3.2–3.6 percent of benefits paid. However, the rate could
                be as high as 5.2 percent—considering the benefits the Agency would not have paid if it had
                perfect knowledge of all conditions affecting eligibility when the payments were issued.
                Our review found that the prevalence of improper payments to beneficiaries in the four specific
                diagnosis groups was not significantly higher than that of payments to beneficiaries in the
                general disability population. Specifically, 55 percent of the overpayments and payments in our
                sample were issued to ineligible beneficiaries in the specified groups. In SSA’s general disability
                population, 54 percent of beneficiaries were in these same four diagnosis groups.
                Finally, we estimated that SSA paid about $2.1 billion in benefits to potentially ineligible
                beneficiaries. Beneficiaries became ineligible mainly because they improved medically. At our
                request, SSA initiated medical continuing disability reviews for 105 beneficiaries in our sample,
                and 12 individuals (or 11 percent) had their benefits stopped because they were no longer
                disabled.


   •  Impact
 April 1, 2006 thru September 30, 2006	                         SSA Office of the Inspector General




Benefit Payment Issue: Benefits Paid to Dually Entitled Title II Beneficiaries
In this review, we examined whether dually entitled Title II beneficiaries were entitled to the
benefits paid to them. Dual entitlement exists when a beneficiary is entitled to more than one
benefit at the same time. However, the total benefit may not be greater than the highest single
benefit amount to which the beneficiary is entitled.
Based on the results of our sample of 200 cases (out of 1,560), we estimated that SSA incorrectly
calculated the payment amounts that were due to about 1,412 beneficiaries. In many cases, the
errors occurred when SSA employees took action to combine benefits from separate records into
one monthly payment. We estimated the total effect of the calculation errors is approximately
$37.6 million, including about $23 million in benefits already paid by SSA and about $14.6
million in future benefit payments.
Based on our recommendations, SSA agreed to: review the remaining cases in our population
to ensure that all overpayments are identified, recorded and pursued for recovery; remind
employees of the proper procedures to follow when combining benefits into one payment;
and also ensure that payment errors are corrected when disability benefits are converted to
retirement benefits.

SSN Protection: SSA’s Controls over the Assignment of Nonwork SSNs
In this review, we examined whether SSA assigned nonwork SSNs to eligible individuals in
accordance with Agency policy. SSA issues Social Security cards with a “NOT VALID FOR
EMPLOYMENT” annotation (nonwork SSN) to noncitizens who need an SSN to qualify for
Federally-funded benefits, such as food stamps, or where a State or local government requires an
SSN for an individual to receive benefits from a State public assistance program. An applicant
for a nonwork SSN must provide evidence of age, identification, and current immigration
status. In addition, the applicant must present a letter from the appropriate governmental entity
explaining the need for the SSN. SSA field office staff determine the validity of supporting
documents and enters the required SSN application information for processing. If all eligibility
requirements are met, the application is processed and an SSN is assigned and a Social Security
card is issued. SSA has significantly decreased the number of nonwork SSNs it assigns to
noncitizens. In FY 1995, SSA assigned nearly 550,000 nonwork SSNs. By FY 2005, SSA had
reduced the number of nonwork SSNs it assigned to less than 15,000.
We found that SSA staff followed SSA policies and procedures and ensured that nonwork SSNs
were assigned for valid nonwork reasons. However, in 45 (22.5 percent) of the 200 nonwork
SSNs we reviewed, at least 1 processing error existed. The most common occurrences of
noncompliance were staff ’s failure to properly document: (1) a valid nonwork reason for the
SSN; and (2) required immigration information. Based on the compliance errors we identified,
we estimated that approximately 1,730 nonwork SSNs assigned from January 1– June 30, 2005
did not fully comply with SSA’s policy and procedures.
We recommended that SSA consider implementing a requirement that field office personnel
verify the authenticity of all State benefit eligibility referral letters presented with nonwork
SSN applications. SSA generally agreed with our recommendation, and will work with Florida,
which accounts for half of these cases, to verify the authenticity of these letters.


                                                                                                      Impact  •  
                 Semiannual Report to Congress	                               April 1, 2006 thru September 30, 2006




                 SSN Protection: SSA’s Program for Issuing Replacement Social Security Cards to
                 Prisoners
                 In this audit, we reviewed SSA’s program for issuing replacement Social Security cards to
                 prisoners. In response to the Intelligence Reform and Terrorism Prevention Act of 2004, SSA
                 implemented policies that require replacement card applicants to produce specific identity
                 documents. However, prisoners are not always able to produce such documents.
                 To assist these prisoners, SSA field offices may enter into written agreements or Memoranda
                 of Understanding (MOU) with prisons, outlining procedures for processing replacement card
                 applications. These MOUs allow authorized prison officials to certify that they have extracted
                 relevant information from the official prisoner record to verify the prisoner’s identity. While
                 some prison officials attempted to comply with this requirement, we observed that some did
                 not. Therefore, some replacement card applications were processed without sufficient evidence
                 of the prisoner’s identity. We also found that some SSA field offices processed prisoners’
                 replacement card applications when no written agreement or MOU was in effect. Further,
                 SSA did not always perform periodic on-site inspections of prisons submitting replacement
                 card applications.
                 As a result of our review, we made several recommendations, including that SSA perform a
                 review at each prison requesting an MOU to ensure that its procedures for establishing prisoner
                 identity are sufficient. We also recommended that SSA require field offices to perform annual
                 on-site reviews of prison procedures, and that SSA reemphasize the importance of following
                 procedures when processing prisoner replacement card applications. SSA agreed with our
                 recommendations.

                 SSN Protection: Compliance with Employment Evidence Requirements for F-1
                 Students
                 F-1 visas are issued to foreign students who are eligible to work on campus. In this review, we
                 looked at students who were issued these visas and granted SSNs based on documentation
                 from their schools that they were authorized to work and were offered employment. Our
                 review was designed to determine whether these students were actually attending classes and
                 were employed on campus; we also wanted to identify any vulnerabilities in SSA’s procedures
                 in this regard.
                 We selected a sample of 250 students representing 59 countries (of almost 25,000 students
                 from 193 countries issued visas between July 15 and September 30, 2005) and contacted their
                 schools to verify their attendance and work status. Of the 250 students, 240 (96 percent) either
                 accepted or were promised employment on campus, as required by SSA policy. Nine students
                 (3.6 percent) were not employed, and for one student, we were unable to identify the school.
                 We identified two areas of potential concern with this work authorization process. First, some
                 students accepted employment on campus but appeared to work only 1 or 2 days. Also, some
                 schools provided employment documentation despite having no intention of actually hiring
                 the student. In light of this, and based on OIG investigations and input from SSA field offices,
                 we plan to conduct additional work in this area.



10   •  Impact
 April 1, 2006 thru September 30, 2006	                         SSA Office of the Inspector General




SSN Protection: Monitoring the Use of Employee Verification Programs
SSA participates in two online verification programs offered to employers: the Social Security
Number Verification Service (SSNVS), which is administered solely by SSA, and the Basic
Pilot, a Department of Homeland Security (DHS) administered program which SSA
supports. We assessed the controls established by each agency over these programs to detect
potential abuse by employers. We also examined SSA and DHS’ experiences to date with
these controls.
Employers use SSNVS to ensure that employees’ names and SSNs match SSA records
prior to the submission of their wages to SSA. Our review found that SSA had established
effective controls over SSNVS access and use of sensitive data. SSNVS also had controls to
detect anomalies in SSNVS usage and potential misuse of the program. For example, SSA’s
monitoring resulted in four investigations of misuse of the program as well as the deactivation
of one user’s access.
The Basic Pilot is a DHS online system that assists employers in verifying the employment
eligibility of newly hired employees. DHS sends employers’ information to SSA to verify that
the SSN, name, and date of birth submitted match information in SSA records. SSA also
confirms U.S. citizenship, thereby confirming work authorization. DHS confirms the current
work authorization for noncitizens. Through discussions with DHS and SSA staff, as well
as our own use of the Basic Pilot, we found that the controls over the application process for
the program were not as comprehensive as those over SSNVS. DHS staff noted that, while
the Basic Pilot does not verify applicant data or continuously monitor user activity, DHS is
planning to initiate similar efforts. We believe continued coordination among DHS, SSA,
and the Internal Revenue Service (IRS), which controls access to additional taxpayer data
that could help with monitoring, would lead to more effective controls to minimize potential
misuse of the Basic Pilot.

Wage Reporting: Employers with the Most Wage Items in the Nonwork Alien
File
SSA annually compiles the electronic Nonwork Alien (NWALIEN) File, which contains
information on noncitizens whose earnings were reported under nonwork SSNs, and sends
this file to the DHS. SSA does not inform the employee or employer that a nonwork SSN
was used for the reported wages.
We reviewed the NWALIEN file to identify the 100 employers with the most wage items for
Tax Years (TY) 2001–2003, and to determine the extent of fraudulent use of nonwork SSNs
in TY 2003. We found that these 100 employers reported about $6.4 billion in wages, and
that the most nonwork wages were reported by employers in three categories—Government,
retail, and universities.
The audit also sampled 275 noncitizens who had earnings from any of the 100 employers
with the most wage postings in the 2003 NWALIEN file. We found that 37 percent did have
work authorizations, but SSA’s records had not been updated to reflect this. Of the 61 percent
who were correctly classified as not having work authorization, most worked in the healthcare,
staffing, hotel, and other service industries. DHS could not locate the immigration records


                                                                                                      Impact  •  11
                 Semiannual Report to Congress	                               April 1, 2006 thru September 30, 2006




                 for the remaining two percent (five cases). The largest numbers of noncitizens were born
                 in Mexico, India, and the Philippines.
                 SSA disagreed with our recommendations, which included informing employees that
                 their earnings were reported to DHS as earned under a nonwork SSN, citing workload
                 implications. Subsequent to the issuance of the report, the agency explained that its
                 disagreement was based not only on the workload implications, but also due to pending
                 legislation in this area. Our response acknowledged that SSA has taken steps to address
                 unauthorized work by noncitizens, and while we agree that DHS has authority over the
                 immigration law and worksite enforcement, we noted that SSA has the opportunity and
                 the ability to do more to assist in reducing unauthorized work by noncitizens.

                 Wage Reporting: Self-Employment Income ESF
                 In this review, we identified errors in the Self-Employment Income (SEI) posted to SSA’s
                 ESF. The ESF contains earnings that are reported under an invalid name and/or SSN
                 combination, as well as other questionable items.
                                             We determined that for TYs 1951–2002, approximately
                                             $11 billion in self-employment earnings and 2.1 million
                                             self-employment earnings items had accumulated in the
                                             ESF. During our review, we found that many of these items
                                             had SSNs with characteristics similar to the IRS’ Individual
                                             Taxpayer Identification Number (ITIN). In coordination
                                             with the IRS, we found that of a sample of 275 SSNs with
                                             ITIN characteristics, 213 SSNs (77 percent) were, in fact,
                                             valid ITINs. Therefore, we estimated that approximately
                 241,600 (12 percent) of the SEI items in the ESF contain valid ITINs issued by the IRS.
                 We also determined that 262 (95 percent) of the 275 potential ITINs were wage earners
                 who would qualify for a minimum of one quarter of Social Security coverage.
                 Although SSA notifies earners whose data post to the ESF that their earnings cannot be
                 resolved until a valid name and/or SSN is provided, the notices do not state that an ITIN
                 cannot be used for employment, or that earners cannot qualify for benefits unless earnings
                 are reported under a valid SSN. We recommended that SSA: (1) work with the IRS to
                 resolve the inconsistent instructions provided to noncitizens; (2) update the language in
                 the SSA notice; and (3) discuss with the IRS the possibility of obtaining ITIN data. SSA
                 agreed with our first recommendation, deferred its decision on the second due to pending
                 immigration reform legislation, and disagreed with the third because it does not believe it
                 would benefit from such an endeavor.

                 Working Environment Audit: Summary of Physical Security Reports
                 The Office of Disability Adjudication and Review (ODAR) (formerly the Office of
                 Hearings and Appeals) administers SSA’s hearings and appeals program. At the hearing
                 level, the Chief Administrative Law Judge (ALJ) manages and administers the hearing




12   •  Impact
 April 1, 2006 thru September 30, 2006	                          SSA Office of the Inspector General




organization consisting of 10 regional offices, 140 hearing offices, and 381 remote hearing
sites. Approximately 1,100 ALJs render about 500,000 decisions at the hearing level annually.
Forty percent of these hearings are held at remote sites.
During this reporting period, we assessed the controls over physical security at 40 SSA
remote hearing sites—4 in each of SSA’s 10 regions. We issued 10 physical security reports
as a result of this audit work and found physical security issues in each region that warranted
management’s attention. We made recommendations related to installing intrusion detection
systems and duress alarm systems, improving controls over keys and proximity cards, and
installing peepholes on hearing room doors. SSA agreed with our recommendations to
improve its physical security and has taken, or is in the process of taking, action to address
our concerns.
Additionally, during FY 2006, we performed physical security reviews at four program service
centers (PSC). PSCs act as processing centers and make formal entitlement decisions on
many Social Security benefit claims. In these reviews, we recommended specific steps SSA
could take to strengthen physical security and reduce vulnerability to potential crimes against
employees and property. SSA agreed with our recommendations and has taken, or is in the
process of taking, actions to address our concerns.

SSA Agency Operations: Match of Veterans Affairs’ Historical Death File
Against SSA’s Benefit Rolls
In this review, we determined whether individuals recorded as deceased on the Department
of Veterans Affairs’ (VA) historical death file continued to receive Old-Age, Survivors and
Disability Insurance (OASDI) benefits and/or SSI payments.
Through data analysis, we identified 1,691 individuals who were recorded as deceased by VA,
but who appeared to continue to receive OASDI benefits and/or SSI payments. We randomly
sampled 200 of these records for detailed analysis. Based on our review, we estimated that
SSA paid approximately $11.7 million in benefits after the deaths of about 228 beneficiaries.
Although SSA discovered some of the improper payments before our audit, we estimated
that about $11.2 million went undetected. Further, we estimated that SSA will continue to
incorrectly pay about $1.9 million over the next 12 months if the deceased beneficiaries in the
population are not identified and their benefits stopped. For the other cases in our population,
we estimated that the death information was erroneous and the OASDI beneficiaries and/or
SSI recipients were alive.
We found that many of the sampled records from VA contained erroneous death information.
In addition, those that had correct dates of death resulted in significant undetected improper
payments, and in some cases, involved possible fraud. Therefore, we recommended SSA review
the remaining cases we identified in which it appears payments may have been issued after
death. SSA agreed with the recommendation.




                                                                                                       Impact  •  13
                 Semiannual Report to Congress	                              April 1, 2006 thru September 30, 2006




                 Investigative Impact Initiatives
                 OI examines allegations of fraud, waste, and abuse in SSA programs and operations. This
                 includes benefit fraud, SSN misuse, violations by SSA employees, and fraud related to grants
                 and contracts. Our investigations often result in criminal or civil prosecutions and CMPs
                 against offenders. These investigative efforts impact SSA program integrity by deterring those
                 contemplating fraud against SSA in the future. Our work in the areas of program fraud,
                 enumeration fraud, SSN misuse, and employee misconduct ensures the reliability of SSA
                 programs and their future operations.


                 Investigative Results


                                                  Investigative Results

                                              10/01/05 – 3/31/06     4/01/06 –9/30/06        FY 2006 Total

                  Allegations Received                     46,943                 52,340             99,283

                  Cases Opened                              5,301                  5,279             10,580

                  Cases Closed                              5,478                  5,006             10,484

                  Arrests/Indictments                       2,816                  2,349              5,165

                  Total Judicial Actions                    1,572                  1,621              3,193

                    Criminal Convictions                    1,109                    923              2,032

                    Civil/CMPs                               112                     173                285

                    Illegal Alien Arrests                    341                     525                866




14   •  Impact
April 1, 2006 thru September 30, 2006	                                                            SSA Office of the Inspector General




                                                Cases Opened by Program Category
                                                    10/01/2005 thru 09/30/2006




                                                                    Other            Social Security Number
                                                                    1.54%                     (SSN)
                                     Employee Related                                        15.53%
                                          2.26%


      Title XVI-Disability (T16-DI)
                39.84%




                                                                                                              Title II-Disability (T2-DIB)
                                                                                                                        27.68%
                                                                             Title II-Retirement (OASI)
                                                                                       10.76%
                                Title XVI-Aged (T16-Aged)
                                           2.39%




                                                 Cases Closed by Program Category
                                                    10/01/2005 thru 09/30/2006




                                                                    Other
                                            Employee Related                        Social Security Number
                                                                    1.29%
                                                 2.02%                                       (SSN)
                                                                                            14.10%



     Title XVI-Disability (T16-DI)
               38.86%




                                                                                                              Title II-Disability (T2-DIB)
                 Title XVI-Aged (T16-Aged)                                                                              28.73%
                            2.37%
                                                               Title II-Retirement (OASI)
                                                                         12.62%




                                                                                                                                             Impact  •  15
                 Semiannual Report to Congress	                               April 1, 2006 thru September 30, 2006




                                                  Allegations Received by Source

                                                  10/01/05 – 3/31/06     4/01/06 – 9/30/06        FY 2006 Total

                  Law Enforcement                               16,316                 16,031              32,347

                  Private Citizens                               9,288                  9,521              18,809

                  Anonymous                                      8,624                  9,919              18,543

                  SSA Employees                                  8,011                 11,312              19,323

                  Other                                          3,176                  4,160               7,336

                  Beneficiaries                                    999                   888                1,887

                  Public Agencies                                  529                   509                1,038


                  TOTAL                                         46,943                52,340               99,283




                                             Allegations Received by Category

                                                  10/01/05 – 3/31/06     4/01/06 – 9/30/06        FY 2006 Total

                  Disability Insurance                          19,055                 21,285              40,340

                  SSI Disability                                16,775                 18,630              35,404

                  SSN                                            4,376                  6,047              10,423

                  Old-Age, Survivors
                                                                 3,249                  3,555               6,804
                  Insurance

                  Other                                          2,567                  1,976               4,543

                  Employee                                         477                    454                 931

                  SSI Aged                                         444                    393                 837

                  TOTAL                                         46,943                 52,340             99,283



16   •  Impact
 April 1, 2006 thru September 30, 2006	                           SSA Office of the Inspector General




The following case summaries highlight major investigations we conducted during this reporting period
which enhanced SSA program integrity and the reliability of SSA’s operations.

Disability Program Fraud: Man Fakes Own Death to Avoid Prosecution
In conjunction with the Bureau of Immigration and Customs Enforcement (ICE) El Dorado Task Force,
agents from our New York office discovered that a 42-year-old man had used the identities of three
other individuals, including his son (who shares his exact name). In an attempt to avoid prosecution,
the man – who had a prior bank fraud conviction – faked his own death through the use of one of these
stolen identities. The man later told a judge that the death hoax was an attempt to gain more time to
retain a lawyer, rather than a guise to avoid prosecution.
Our investigation revealed that the man had contacted at least 12 hospitals and hospices in the New York
area to find a terminally ill individual with the same name as his own, in order to assume his identity.
In November 2005, he reported to his defense attorney that he was a terminally ill hospice patient and
gave the lawyer the hospice contact information. In December  2005, the defense attorney, after calling
the hospice and learning that the individual with the same name as his client had died, reported this
information to the prosecutor.
The man’s scheme was revealed due to the persistence of the prosecutor and our agents, who did
not accept the report of death as given by the man’s attorney. Further investigation proved that the
prosecutor’s suspicion was correct. The man was convicted and sentenced to 8 years’ incarceration and
5 years of supervised release.

Representative Payee Fraud: Virginia Pastor Defrauds Charity and Steals SSI Payments
Our agents in Ashland, Virginia, working with the Federal Bureau of Investigation (FBI) and the Virginia
State Police, investigated a man who was convicted of defrauding SSA as well as a local charity. The
man, who served as representative payee for SSI recipients, also served as mayor of a Virginia city and
as a pastor of a local church. The man was found guilty of misusing the SSI recipients’ payments and
charity donations to pay off his personal debts and a portion of his delinquent Federal taxes. He was
sentenced to 5 years of probation, 6 months of home detention, and 200 hours of community service.
The court also ordered the man to pay a $7,500 fine, and over $7,800 to SSA, to be returned to the
SSI recipients.

Employee Fraud: SSA Employee Terminated and Sentenced to Prison After Guilty
Verdict
Our Los Angeles agents conducted an investigation which revealed that an SSA employee and her
accomplice sold Social Security cards to individuals residing in the United States illegally. The accomplice
recruited the noncitizens and charged them between $1,000 and $5,000 for each card, while the SSA
employee processed the SSN applications. The SSA employee did not conduct face-to-face interviews
with any of the applicants.
In August 2005, the SSA employee was sentenced to15 months’ incarceration in Federal prison and
3 years’ probation, and was ordered to pay fines totaling $3,200. In addition, SSA terminated the
employee in October 2005. In December 2005, the accomplice was sentenced to 8 months’ incarceration
(including credit for time served) and 3 years’ probation. He was deported to Chile in January 2006.


                                                                                                        Impact  •  17
                  Semiannual Report to Congress	                                         April 1, 2006 thru September 30, 2006



           CDI Program Investigative Results
           The CDI program is a joint effort of the OIG, SSA, State DDSs, and State and local law enforcement
           personnel, utilizing 19 CDI units in 17 States to obtain sufficient evidence to identify and resolve
           questions of fraud in SSA’s disability programs. The following table highlights the successes of the
           CDI program for this reporting period.
                                                      CDI Program Results
                                                   April 1 – September 30, 2006
                                                  Allegations Confirmed                                          Non-SSA
               State                              Received    Fraud Cases SSA Savings1                           Savings2
               Arizona                                     53          32   $2,087,250                             $570,370
               California3                                405         268 $16,486,249                           $12,300,744
               Colorado                                    78          65   $4,253,872                           $2,308,284
               Florida                                     61          58   $3,554,732                           $3,156,753
               Georgia                                    120          63   $3,869,490                           $1,092,546
               Illinois                                    63          43   $2,672,502                           $1,115,390
               Louisiana                                   30          31   $1,927,008                             $773,547
               Massachusetts                               47          25   $1,502,615                             $636,400
               Missouri                                    98          36   $2,190,150                             $872,210
               New Jersey                                 110          90   $6,049,280                           $5,875,245
               New York                                    92          58   $4,057,806                           $3,722,670
               Ohio                                       210         147   $9,550,964                           $4,360,670
               Oregon                                     177         130   $8,328,984                           $5,388,840
               Tennessee                                   92          35   $2,139,768                           $1,123,766
               Texas4                                     151         101   $6,140,487                           $3,436,251
               Virginia                                    59          45   $2,973,700                           $2,338,635
               Washington                                 195         128   $7,683,626                           $6,416,105
               October 1, 2005 – March 31, 2006         1,686       1,076 $65,716,096                           $41,997,812
               April 1, 2006 – September 30, 2006       2,041       1,355 $85,468,483                           $55,488,426
               FY 2006 Grand Totals                     3,727       2,431 $151,184,579                          $97,486,238
           1
            SSA program savings are reported at a flat rate of $66,500 for initial claims that are denied as a result of CDI
           investigations. When a CDI investigation supports the cessation of an in-pay case, SSA program savings are calculated by
           multiplying the actual monthly benefit times 60 months.

           2
            Non-SSA Savings are also projected over 60 months whenever another governmental program withholds benefits as a
           result of a CDI investigation, using estimated or actual benefit amounts documented by the responsible agency.

           3
               California has two units, one in Los Angeles, and the other in Oakland.

           4
               Texas has two units, one in Dallas, and the other in Houston.



18   •  Impact
 April 1, 2006 thru September 30, 2006	                        SSA Office of the Inspector General




Cooperative Disability Investigation: SSI Recipient Conceals Work by Altering
SSN
The St. Louis CDI Unit investigated a 24-year-old male who had been receiving SSI disability
payments since 2001 for mental illness. The Missouri Disability Determinations Office
referred this case because a psychiatric examination gave rise to a suspicion of malingering.
The man reported that he was dependent on his mother for all of his daily activities, had no
social contacts, could not go out alone, and heard “voices.”
The CDI investigation revealed that the man had one active felony warrant and six active
misdemeanor warrants. A further check by the CDI Unit showed that the man had an
extensive criminal history, with numerous felony and misdemeanor arrests dating from
1999 – 2006. In addition, he was on probation for stealing and tampering with a motor
vehicle. The CDI investigation also revealed that the man had worked for a cable company, a
moving company, a restaurant, and an auto parts store. A review of the suspect’s employment
application and his State wage record showed that he had intentionally altered his SSN in
an attempt to conceal his wages from SSA.
CDI investigators observed the man and his mother, acting as his representative payee,
during a visit to an SSA office for an interview. The man drove his vehicle to within several
blocks of the SSA office and changed places with his mother, who had been a passenger in
the vehicle. His mother drove the remaining few blocks and then accompanied her son into
the interview. The man’s disability benefits were ceased, and the case has been referred for
CMP consideration.

Cooperative Disability Investigation: “Blind” Woman, Cited Twice for Speeding,
Admits to Regaining Sight
The Tampa CDI Unit investigated a 40-year-old woman who was receiving Title II disability
benefits for statutory blindness. The blindness occurred in September 2000 due to permanent
nerve damage. The CDI Unit received a report that the woman routinely drove from Florida
to North Carolina and drove her daughter to Disney World for acting lessons. She was also
alleged to be self-employed as a full-time contractor for accountants, earning approximately
$150,000 annually. Upon investigation, Tampa CDI agents found that the woman had
renewed her driver’s license in August 2003 after surrendering it in 2000; she acquired and
registered an automobile in April 2002; and she received two traffic citations for speeding
after she became eligible for SSA disability benefits.
In July 2005, the Tampa CDI Unit obtained a copy of a sworn deposition in which the
beneficiary stated that there was no restriction on her driver’s license. During a mediation
hearing in December 2005, she read aloud without glasses in open court. In January 2006,
the woman was interviewed and admitted that her medical condition had improved and
she had returned to full functionality. SSA terminated the woman’s benefits and assessed a
$106,762 overpayment.




                                                                                                     Impact  •  19
                 Semiannual Report to Congress	                                 April 1, 2006 thru September 30, 2006




                 Cooperative Disability Investigation: Tractor-Driving Man Denied Disability
                 Benefits
                 Nashville CDI Unit investigated a 52-year-old man who filed for Title II disability benefits
                 alleging back problems, arthritis, acid reflux disease, chronic pulmonary disease, and depression.
                 The man stated that he uses a wheelchair and cannot drive or operate equipment, and that
                 his ability to work was further limited by depression and lower back problems. One of the
                 man’s friends advised that he does not go outside alone because of poor memory and safety
                 concerns.
                 CDI investigators observed the man at his residence driving a tractor with a trailer attached.
                 The man climbed out of the tractor, walked back to the trailer, and bent over to pump up the
                 tire. CDI investigators interviewed the man and he answered questions appropriately without
                 hesitation. During the interview, the man did not mention any physical or mental impairment,
                 or that he was unable to work. Additionally, the man did not use an assistive device for support
                 or mobility while being observed or interviewed. The man’s disability claim was denied.

                 Fugitive Felon Program: Sex Offender Makes Death Threats Against Judge and
                 Prosecutor
                 In May 2006, agents from our Seattle office, in conjunction with members of the U.S. Marshals’
                 Northwest Fugitive Apprehension Task Force, arrested a man in Kent, Washington, as a
                 result of a felony warrant. The man, who was a level-three sex offender and Title II disability
                 beneficiary, had been released from custody in April 2006 after serving a 15-year sentence
                 for first-degree child molestation. Upon release, the man was placed on active supervision
                 with the Washington State Department of Corrections. After his release, law enforcement
                 received information that the man had made death threats against the prosecutor, judge, and
                 others involved in his prosecution. It was also reported that the man had violated a no-contact
                 order by contacting one of his victims, and that he had failed to report to the Department of
                 Corrections. The man’s Title II benefits were suspended, and he remains in custody pending
                 new charges of failure to register as a sex offender.

                 Fugitive Felon Program: Man Arrested After Fleeing Justice for 17 Years
                 In June 2006, a 62-year-old man, who had been a fugitive from second-degree murder charges for
                 almost 17 years, was arrested by agents from our Harlingen, Texas office and agents assigned to
                 the FBI Violent Crimes Task Force. The man’s whereabouts were unknown to law enforcement
                 authorities until he applied for Social Security retirement benefits in February 2006. A fugitive
                 felon investigation revealed that he was using a mail drop to receive his Social Security payments
                 at an address in Pharr, Texas. Our agents located and arrested the man in Mercedes, Texas.
                 He is currently in custody, awaiting extradition to Michigan.

                 Legal Impact Initiatives
                 OCCIG improves SSA program integrity from a different perspective, through its administration
                 of the CMP provisions of Section 1140 of the Act. This section prohibits the use of SSA’s


20   •  Impact
 April 1, 2006 thru September 30, 2006	                           SSA Office of the Inspector General




program words, letters, symbols, or emblems in advertisements or other communications in a
manner that falsely implies SSA’s approval, endorsement, or authorization. An individual or
entity that violates this provision is subject to a maximum penalty of $5,000 for each misleading
communication. Our nationwide enforcement efforts serve as a meaningful deterrent in this area
and continue to positively impact SSA’s mission. In fact, as a result of our many successful CMP
actions to date, we have seen a significant decline in complaints and cases over the years as it has
become clear that this type of misleading activity will be met with a swift response.

Misleading Advertising: Company Adds Mandatory Disclosure Language to
Website
An Arizona business that offers various services designed to minimize the risk of identity theft
and to assist clients when it appears they may be the victim of identity theft entered into a
voluntary compliance agreement with OCCIG during this reporting period. Among other things,
the company checks the Social Security earnings records of minor children in order to alert its
clients of any potential inappropriate activity associated with the children’s SSNs. While this
practice is legal, section 1140 of the Act requires individuals who provide for a fee any service
SSA offers for free, to clearly state this on all solicitations. After contact by OCCIG, the company
added the following language to its website: “We obtain a work history from the Social Security
Administration to ensure that no income is being reported on your child’s SSN. This service is
available for free from the Social Security Administration.” This language brings the company
into compliance with section 1140 and ensures that the recipient of the communication is able
to make an informed decision about using the company’s service for a fee.
The following table presents our Section 1140 accomplishments for this reporting period.



                   Misleading Advertising Under Section 1140 Results

                                   10/01/05 – 3/31/06        4/01/06 – 9/30/06          FY 2006 Total

 Complaints Received                       43                         7                       50
 New Cases Opened                           8                         9                       17
 Cases Closed                               7                         5                       12
   No Violation Found                       2                         4                        6
   Voluntary Compliance                     5                         1                        6
    Settlement Agreement
                                            0                         0                        0
   (# of cases/amounts)
    Penalty/Court Action
                                            0                         0                        0
   (# of cases/amounts)
  Hearings Requested                        0                         0                        0

                                                                                                        Impact  •  21
              Semiannual Report to Congress	                               April 1, 2006 thru September 30, 2006




              Value
              All OIG initiatives strive to provide value to SSA, the Congress, other key decision-makers,
              and the public by delivering timely and reliable audit, investigative, and legal products and
              services. To achieve the intended value, these products and services must effectively meet the
              needs of all whom we serve while maximizing our available resources. To do this, we integrate
              best-practice strategies and the newest technologies to increase our productivity and maximize
              our return on investment to the public. Taken together, our audits, investigations, and legal
              efforts generated a positive return.
              Value Attained Through Audits
              The focal point of many of our audits is the identification of SSA program and operational
              areas where funds could be put to better use. In addition, we have often isolated situations
              where we have questioned approaches and their costs and have recommended alternatives to
              yield program and operational savings.
              During this reporting period, our auditors issued 64 reports with recommendations identifying
              over $1.2 billion in questioned costs and over $2.5 billion in Federal funds that could be put
              to better use. Some of our most notable audits are summarized below.

              Benefit Payment Issue: Impact of Statutory Benefit Continuation on SSI
              Payments Made During the Appeals Process
              If an SSI recipient is determined to no longer be eligible for payments based on a medical
              continuing disability review, the recipient has the right to appeal that decision. The recipient
              has the option of continuing to receive payments during the appeals process; however, these
              payments are then considered overpayments if the cessation decision is upheld. This audit
              evaluated the financial impact on the general fund when recipients continue to receive payments
              while appealing a medical cessation decision.
              We estimated that SSA paid approximately $200 million in SSI payments to recipients who
              received an ALJ decision between October 1, 2002 – September 30, 2004; of this amount,
              approximately 73 percent ($146 million) were overpayments. Of these overpayments:
              • only 4 percent ($5.2 million) was collected;
              • approximately 34 percent ($49.7 million) was being collected through installment
                payments;
              • no action had been determined for 18 percent ($26.8 million); and
              • the remaining 44 percent ($64.5 million) was waived, written off, deemed uncollectible, or
                collection of the overpayment was suspended by SSA.
              SSA does not require that these cases be given priority at the reconsideration level—the median
              processing time for reconsideration appeals was 195 days. Furthermore, although ALJs have
              instructions to give these cases priority processing at the hearing level, the median processing
              time for ALJ appeals was 366 days. SSA agreed to: (1) enhance the business process to allow



22 •  Value
April 1, 2006 thru September 30, 2006	                          SSA Office of the Inspector General



for more timely decisions on medical cessation appeals; and (2) remind components of the proper
procedures for timely termination of SSI payments for these cases.

Benefit Payment Issue: Beneficiaries in Suspended Payment Status Pending the
Selection of a Representative Payee
SSA appoints representative payees to receive and manage benefit payments to individuals who
cannot manage or direct the management of their benefit payments. When a beneficiary requires
a representative payee and none is immediately available, SSA may defer or suspend benefits for
a maximum of 1 month while it finds a representative payee, if direct payment of the benefits
would cause substantial harm to the beneficiary. If the beneficiary is legally incompetent, under
age 15, or has an alcoholism or drug addiction condition, SSA may defer or suspend benefits for
longer than 1 month, if necessary. SSA policy states that the selection of a representative payee
should be resolved as quickly as possible.
In this review, we assessed whether SSA had adequate controls to ensure that payments to
beneficiaries were not improperly suspended pending the selection of a representative payee.
Based on a review of 539 beneficiaries whose benefits were suspended pending the selection of
a representative payee, we estimate that SSA:
• improperly suspended approximately $4.6 million in benefit payments to about
  1,700 beneficiaries;
• did not reinstate about $5.2 million in benefit payments to about 1,580 beneficiaries after
  1 month; and
• withheld approximately $5.7 million in benefits from about 2,220 children under age 15 for
  an average of 252 days.
SSA agreed with the four recommendations we made, including that SSA remind field office
employees about the current policies and procedures regarding suspending payments to
beneficiaries pending the selection of a representative payee.

Benefit Payment Issue: Beneficiaries Paid Under More than One SSN
In April 2005, we issued a report, Individuals Receiving Benefits Under Multiple SSNs at the
Same Address, in which we identified over $9 million in overpayments and a number of cases
involving fraud. SSA agreed to improve its matching processes to identify individuals receiving
multiple benefits at the same address.
We initiated the current review to identify individuals who received benefits inappropriately under
multiple SSNs at different addresses. Based on our analysis of approximately 54 million SSA
records, we identified 320 individuals who appeared to be receiving either OASDI benefits or SSI
payments inappropriately under at least two different SSNs. Of these, we determined that:
• 221 individuals were, in fact, receiving benefits inappropriately; 212 of these involved possible
  fraud and 9 involved administrative errors;
• 88 cases were not overpaid; and
• 11 cases were still under review as of July 2006.

                                                                                                      Value  •  23
              Semiannual Report to Congress	                                 April 1, 2006 thru September 30, 2006




              As of July 2006, the Agency had identified $3 million in overpayments as a result of this
              audit. We recommended that SSA continue to work with OI and assess overpayments where
              appropriate. SSA agreed with our recommendation.
              We also followed up on our prior audit, Individuals Receiving Benefits Under Multiple SSNs at
              the Same Address, and found that SSA had assessed an additional $3 million in overpayments
              through July 2006.

              Value Attained Through Investigations
              During this reporting period, the efforts of our investigators yielded significant results arising
              from the successful prosecution of cases that they developed. Our investigators achieved over
              $292 million in investigative accomplishments, with over $57 million in SSA recoveries,
              restitution, fines, settlements, and judgments and over $234 million in projected savings
              from investigations resulting in the suspension or termination of benefits. The following table
              represents the efforts of OI personnel nationwide to recover SSA funds paid in fraudulent
              benefits or through other illegal actions.




                                                 SSA Funds Reported

                                      10/01/05 – 3/31/06 4/01/06 – 9/30/06                   FY 2006 Total

               Recoveries                        $18,191,854                 $17,300,460          $35,492,314

               Fines                                 $792,358                 $1,209,503            $2,001,861

               Settlements/                        $1,038,156                   $601,563            $1,639,719
               Judgments
               Restitution                         $9,504,997                 $9,312,912          $18,817,909

               Estimated                        $109,845,163               $124,409,390          $234,254,553
               Savings
               Total                           $139,372,528               $152,833,828          $292,206,356




24 •  Value
 April 1, 2006 thru September 30, 2006	                            SSA Office of the Inspector General




The following case summaries are indicative of the nearly 5,500 investigations that we closed
during this reporting period. The cases we have highlighted illustrate the many instances where
our investigative efforts have afforded a significant return on the investment of our staff and
resources.

SSN Misuse: Former NFL Player Embezzles $968,656
The IRS and the FBI requested our Oklahoma City office’s assistance with an investigation
involving a former professional football player. The individual, who worked as a stockbroker and
investment advisor, misused SSNs on Western Union wire transfers in an attempt to conceal
his identity when sending and receiving funds obtained from investors. He did not invest these
funds; instead, he used the monies for his personal expenses.
The man pled guilty to securities fraud and money laundering violations. He was sentenced
in September 2006 to 6 years and 3 months in prison and 5 years’ supervised release, and was
ordered to make restitution of $968,656 to 15 victims.

SSN Misuse: Power Authority Employee Embezzles $303,000 in Public Funds
In a joint investigation by our San Juan office and the Puerto Rico Bureau of Special Investigations,
we determined that a man employed by the Puerto Rico Power Authority developed a criminal
scheme using travel vouchers, in which he embezzled over $303,000 in public funds. The man
used a combination of 12 names and 206 SSNs.
The man, who paid $100,000 in restitution as part of a plea agreement, was also sentenced to a
supervised release period of 12 years, as well as 30 hours of community service per month for
the duration of the probation period.

Representative Payee Fraud: Man Uses False SSN to Work and Defrauds SSA of
$252,371
An SSA disability beneficiary and his mother, acting as his representative payee, were both found
guilty of grand theft after agents in our San Diego office found that the beneficiary had been
working since 1988. The beneficiary worked in Colorado under a false SSN, and his mother
continued to receive his benefits electronically while residing in Tijuana, Mexico.
Both the beneficiary and his mother were sentenced to 6 months of incarceration and 5 years
of probation. They are also jointly responsible to repay the full amount of $252,371 to SSA.
They paid $30,000 to the court as a first installment payment.

Representative Payee Fraud: Representative Payee Embezzles Funds of 27 SSA
Beneficiaries
Our agents in Greensboro, North Carolina investigated an employee of a faith-based organization
that assists the homeless and disabled. The investigation revealed that the 36-year-old man
embezzled funds while serving as representative payee for 27 SSA beneficiaries. He pled guilty
to theft of Government funds and was sentenced to 30 months’ imprisonment and 3 years’
supervised release. He was also ordered to pay $69,000 in restitution to SSA.


                                                                                                         Value  •  25
              Semiannual Report to Congress	                                April 1, 2006 thru September 30, 2006




              Double Check Negotiation: Woman Claims Non-Receipt of 13 SSI Checks
              Our Ft. Lauderdale office conducted this investigation as part of the national Double Check
              Negotiation project, which targets individuals who repeatedly allege non-receipt of SSI
              checks and then cash both the original and replacement checks. The investigation determined
              that the SSI recipient committed 13 double check negotiations totaling $6,306 from
              January 2000 – June 2003. The woman pled guilty and was sentenced to 5  years’ probation,
              beginning with 6 months’ home confinement. She was also ordered to pay $6,306  in
              restitution to SSA.

              Disability Program Fraud: Louisiana Woman Defrauds SSA of $155,949
              Our Baton Rouge office investigated a 61-year-old Title II disability beneficiary in
              New Orleans who worked while receiving benefits. The investigation revealed that the
              woman became eligible for disability benefits in June 1981. From 1985 through 1989, she
              worked for a check-cashing establishment under two different SSNs. One of the SSNs
              belonged to her brother, who died in November 1989.
              Further investigation revealed that the woman worked from 1992 – 2001 for another
              check- cashing business. Over the years, SSA had attempted to verify her work and earnings
              without success. In July 2006, she was sentenced to 5 years’ probation and ordered to pay
              restitution to SSA of $155,949.

              Disability Program Fraud: Missouri Man Uses Wife’s Name and SSN to Work
              This investigation was initiated by our Kansas City office based on information received from
              the Maryville, Missouri SSA office. The referral alleged that a Title II disability beneficiary
              had returned to work and was engaging in full-time employment despite his disability. Our
              investigation revealed that the man concealed this work activity by reporting his wages under
              his wife’s name and SSN. In January 2003, the man’s employer provided SSA with false
              documentation stating that the man had not earned these wages, and further signed a wage
              verification form for SSA indicating that the man’s wife had earned all of the wages. Our
              investigation proved that these wages were actually paid to the SSA beneficiary.
              In April 2006, the man was sentenced to 5 years’ probation and ordered to pay restitution
              to SSA of $45,820. The employer was sentenced to 3 years’ probation and ordered to pay
              restitution of $45,820 to SSA.

              Disability Program Fraud: Carpet Cleaning Business Owner Conceals Work
              Activity
              This case was referred to our St. Louis office by the North County, Missouri SSA office.
              According to the referral, a woman who had received Title II disability benefits since 1978
              owned and operated a carpet-cleaning business. SSA advised that it had statements from
              her in which she denied working. Our investigation determined that since 1999, the woman
              had, in fact, owned and operated a carpet-cleaning business. Agents conducted surveillance




26 •  Value
 April 1, 2006 thru September 30, 2006	                           SSA Office of the Inspector General




of the woman’s activities on numerous occasions and ultimately interviewed her at work. The
woman admitted to wrongdoing and provided a sworn, written statement to our agents.
In June 2006, she was sentenced to 3 months’ home confinement and 5 years’ probation, and
was ordered to pay restitution to SSA of $122,125.

Value Attained Through CMPs
Our efforts to administer that portion of the CMP program that deals with violators of Section
1129 of the Act also maximize the resources available to us and create a positive return on
investment. Section 1129 of the Act allows for the imposition of a CMP against those who
make false statements or representations in connection with obtaining or retaining benefits or
payments under Titles II, VIII, or XVI of the Act. The Social Security Protection Act of 2004
(Public Law 108-203) extended CMP authority to penalize representative payees for wrongful
conversion of payments made under the Social Security programs, and to penalize individuals
who knowingly withhold a material fact. After consultation with DOJ, OCCIG is authorized
to impose penalties of up to $5,000 against individuals for each false statement, representation,
conversion, or omission. A person may also be subject to an assessment, in lieu of damages, of
up to twice the amount of any overpayment.
The following table and cases highlight the value achieved through our Section 1129 efforts
for this reporting period.

Statements Under Section 1129 Results


                    False Statements Under Section 1129 Results

                            10/01/05 – 3/31/06       4/1/06 – 9/30/06           FY 2006 Total

Cases Received                        240                    305                      545

Cases Initiated                       103                    182                      285

Cases Closed                          182                    181                      363
Penalties and
                                  $1,122,683             $1,625,050               $2,747,733
Assessments
Number of Hearings
                                          19                 17                        36
Requested




                                                                                                        Value  •  27
              Semiannual Report to Congress	                                 April 1, 2006 thru September 30, 2006




              CMP: Representative Payee Misuse Case
              The Social Security Protection Act of 2004 extended CMP authority to include the misuse
              of benefits by representative payees. In the first case completed under this new authority,
              OIG imposed a $10,000 CMP and an assessment in lieu of damages of $19,108 against an
              individual who signed and submitted to SSA an application to be the representative payee for
              his daughter. The application contained a statement that, as a representative payee, any payment
              he would receive on his daughter’s behalf would be used solely for her needs. However, an OIG
              investigation indicated that, although he received $19,108 in benefits on his daughter’s behalf,
              he did not use any of these funds for his daughter’s care or benefit. We imposed a penalty of
              $10,000; SSA has initated collection and will redirect the misappropriated benefits to the
              daughter. We intend to continue to make full use of this legislative authority to ensure that
              the most vulnerable of SSA’s beneficiaries are not victimized by those charged with acting
              on their behalf.

              CMP: Illinois Siblings Conceal Nearly $1,000,000 to Obtain SSI Payments
              In order to continue receiving SSI payments, a Chicago woman concealed nearly $1,000,000
              in resources (including retirement accounts, stocks, and real estate, as well as approximately
              $1,000 per month in income she received for cleaning the medical offices of a relative) and
              falsely reported to SSA that her only income consisted of her Social Security benefits.
              Moreover, while acting as her translator, the woman’s brother provided false information
              to SSA regarding her resources, despite the fact that he knew, or should have known, about
              his sister’s resources. As a result of the concealed income and assets, the subject improperly
              received $14,445 in benefits. SSA is collecting the overpayment. In addition, OCCIG imposed
              CMPs of $35,000 against the woman and $15,000 against her brother.

              CMP: New York Car Salesman Conceals Work Activity to Collect Disability
              Benefits
              A successful New York car salesman, who owned and managed three car dealerships, concealed
              his work activity to collect disability benefits. Although he returned to work a few weeks after
              surgery, he told SSA that he was unable to return to work. Pursuant to a joint investigation with
              the New York State Attorney General’s Office regarding fraudulent schemes in car dealerships,
              we learned that the subject owned and managed three business ventures despite his allegation
              of disability to SSA. The man’s employees reported that he sold vehicles himself and directly
              supervised the staff. In addition, he maintained an office at the car dealership where he met
              with customers, bank representatives, and sales managers on a daily basis.
              In a CMP action, OCCIG identified seven false statements that the man provided to SSA
              to facilitate the improper receipt of benefits. During the negotiations, he maintained that he
              did not return to work, although the evidence documented that he worked full-time at the
              car dealership each day until he was arrested at his worksite. Ultimately, OCCIG imposed a
              $25,000 CMP against the man.




28 •  Value
 April 1, 2006 thru September 30, 2006	                            SSA Office of the Inspector General




People
We continue to stress the importance of a highly skilled and motivated workforce. Our success
in recruiting and retaining the best individuals is reflected in our substantial accomplishments
during this reporting period. In addition, our leadership continues to provide employees
with superior training opportunities and career-enhancing developmental assignments. The
OIG Organizational Health Committee periodically assesses employee satisfaction levels
and addresses areas of concern. In addition, each OIG component conducts annual training
conferences where their respective employees come together to learn about new operational
procedures and hear from a variety of speakers on leadership and technical issues.

Budget
For FY 2006, our annual appropriation was $91.5 million, which supported a staffing
level of 615 Full-Time-Equivalents. Approximately 84 percent of our budget was used
for employee salaries and benefits, and the remaining 16 percent for operational costs. The
majority of operational spending included 10 percent for mandatory requirements (i.e.,
rent, utilities, and services), leaving approximately 6 percent for discretionary spending
(e.g., travel, training, and procurement, etc.).
In accordance with the President’s Management Agenda, OIG’s Strategic Plan integrates
budget and organizational performance. The goals set forth in our Plan are continuously
monitored, and results are reported to OIG leadership on a monthly basis.

Human Capital Planning and Management
We continuously monitor staffing throughout the organization to ensure that vacant
positions are filled expeditiously. Based on historical trends and human resource data, our
integrated budget and staffing plan forecasts employee separations, allowing us to determine
when recruitment should occur. Aggressive staffing and recruitment ensures that OIG
components have the necessary resources to fulfill their respective missions.
We remain vigilant in our efforts to recruit and retain the best employees possible. We use
structured interviews to assess job candidates, a technique that results in excellent selections.
Our human capital specialists and recruiters participate in job and career fairs around the
country. Some of these events target underrepresented groups in the labor market, allowing
us to continue our efforts toward employing a diverse workforce.
Like many Federal agencies, SSA is implementing a new employee performance management
system that links individual performance to organizational goals. The new Performance
Assessment and Communication System (PACS) replaces the current “pass/fail” performance
evaluation process with a multi-tiered system. OIG was asked to pilot the new system for
approximately 225 headquarters and Philadelphia regional employees. The pilot began on
June 1, 2006 and covered the performance period ending on September 30, 2006. SSA
implemented PACS agency-wide on October 1, 2006.



                                                                                                     People  •    29
               Semiannual Report to Congress	                                 April 1, 2006 thru September 30, 2006




               Information Technology (IT)
               We provide and maintain most of our own IT systems. We realize the importance of state-of-
               the-art tools and place a high priority on ensuring that our employees have the latest proven
               technologies with which to perform their work.
               In support of the President’s goal to expand electronic services, we redesigned our Internet website
               to improve its usefulness to the public. As more citizens choose to interact with government
               online, we understand the importance of creating and maintaining easy-to-understand and
               easy-to-use web-based services. A workgroup comprised of auditors, investigative personnel,
               legal experts, and administrative technicians reviewed every page and link on our website.
               Based on that review, we implemented a substantial number of modifications. Information
               is now displayed in a more logical and conversational format. We also eliminated redundant
               information and clarified the remaining information. We are committed to the continuous
               review and improvement of our website to ensure that the public can obtain accurate and
               helpful information quickly and easily.
               We are continually assessing industry trends to determine what new technologies are best suited
               for our business processes. During this reporting period, we developed a plan to consolidate
               file servers to maximize efficiency and facilitate improved backup and recovery capabilities.
               To ensure appropriate safeguards for IT equipment and sensitive data, we encrypted laptop
               computers and issued updated policy to all employees advising them of necessary “use and
               care” procedures.
               OIG software specialists and contract personnel continue enhancing and expanding our
               National Investigative Case Management System (NICMS). During this reporting period,
               NICMS enhancements included:
               • allowing automated responses for allegation and case referrals between OIG and SSA;
               • new reporting capabilities and data displays;
               • an automated reminder to follow up on aging cases; and
               • the ability to enter a variety of new fields and search within additional data categories.

               Outreach Efforts
               We are always seeking new ways to reach out to the wider Federal community as well as to
               members of the public. In a variety of venues, we share our mission of promoting integrity
               and excellence in Social Security programs and operations. These occasions are important
               opportunities to exchange information and forge partnerships that can help us further our
               mission. It is also a chance to educate and inspire public confidence in Federal programs.
               During this reporting period, OIG senior officials and employees have been on the podium and
               in the spotlight, sharing successes related to current OIG projects and initiatives. For example,
               the Inspector General spoke to the National Association of Disability Examiners in San Diego,
               and the Deputy Inspector General participated on a panel at the Association of Government
               Accountants’ Internal Control & Fraud Conference in Atlanta. The Resident Agent-in-Charge



30 •  People
 April 1, 2006 thru September 30, 2006	                          SSA Office of the Inspector General




in Batavia, New York gave a presentation on the complexities of identity crimes to criminal
justice students at the State University of New York. In addition, three directors from OA
spoke at regional Intergovernmental Audit Forum meetings on identity theft and access to
confidential information.
The SSA OIG is comprised of offices located across the United States, and our employees
participate in many activities in their local communities, acting as ambassadors for Federal
law enforcement and the SSA OIG. For example, OI special agents assisted the Federal Law
Enforcement Officer’s Association in fingerprinting and photographing children at the National
Center for Missing and Exploited Children’s National Kids Day Events in Greensboro, North
Carolina, and Milwaukee, Wisconsin. Agents from our Chicago office participated in the Police
Unity Tour, which honors the service and sacrifice of law enforcement officers who died in
the line of duty, and raises money and awareness for the National Law Enforcement Officers
Memorial located in Washington, D.C.
Together with our co-host, the Smithsonian Institution OIG, the SSA OIG planned and
hosted all of the Federal Government’s inspectors general at the Annual President’s Council on
Integrity and Efficiency/Executive Council on Integrity and Efficiency (PCIE/ECIE) Annual
Training Conference and Retreat on May 1-4, 2006 in Portsmouth, Virginia. The theme of
this year’s conference was “Adapting to Change—The Changing Role of the Inspector General
Community.”
Speakers were drawn from both the public and private sectors to address the changes in traditional
OIG workloads as well as to discuss how more contemporary issues like hurricane disaster relief
and global terrorism are affecting our work. Guest speakers included OMB’s Deputy Director
for Management, Clay Johnson; Dateline NBC’s Chris Hansen; Andre Hurtubise, Director
General of Integrity Operations for Service Canada; and General Counsel Marilyn Glynn of
the Office of Government Ethics.
Finally, the Inspector General’s Chief Counsel has participated on the President’s Identity
Theft Task Force since its inception in May 2006. As part of the Law Enforcement workgroup,
we contributed to the creation of “Combating Identity Theft: A Strategic Plan,” which will be
presented to the President and the Attorney General in November 2006.

Hurricane Response Efforts
In the wake of Hurricanes Katrina and Rita, OIG took many immediate actions to support the
Agency as well as individuals in the affected areas. For example, we provided security for the
distribution of emergency Social Security checks, escorted officials through devastated areas,
and assisted in the setup of temporary Social Security offices.
Although more than a year has passed since these devastating hurricanes came ashore, we
continue to be actively involved in combating disaster-related fraud and helping prepare SSA for
similar events in the future. Because the SSN is a key identifier for the various relief programs,
our office has become a critical partner in multi-agency investigations of hurricane-related
fraud. Attorneys from our Office of the Chief Counsel have represented the SSA OIG on the
PCIE/ECIE Homeland Security Roundtable, the collaborative effort for hurricane recovery
oversight across Federal agencies.



                                                                                                   People  •    31
               Semiannual Report to Congress	                                 April 1, 2006 thru September 30, 2006




               Our OI has also assigned an agent to the DOJ’s Hurricane Katrina Fraud Task Force in Louisiana,
               and we have been involved in numerous joint investigations of hurricane-related fraud referred
               from the task force and other law enforcement agencies. At the close of this reporting period, our
               OI had opened 55 investigations and secured 28 indictments and 15 convictions of individuals
               for hurricane-related fraud.
               In addition, our auditors have assessed SSA’s service delivery and its emergency policies and
               procedures that were implemented in the days, weeks, and months following the initial impact
               of the hurricanes. Following are highlights of two investigations and an audit as a small sample
               of our efforts related to recovery from the catastrophic effects of Hurricanes Katrina and Rita
               and preparation for any future disaster recovery efforts.

               Individual Fraudulently Obtains $35,000 in Disaster Assistance Funds
               In cooperation with the Government Accountability Office (GAO), the DHS OIG, and the
               United States Postal Inspection Service (USPIS), our Dallas office arrested an individual
               for identity theft, mail fraud, and wire fraud. The individual is accused of fraudulently filing
               15 separate applications for disaster relief funds at various locations throughout Texas and
               Louisiana. The scheme was allegedly accomplished by making false statements using different
               addresses and other individuals’ SSNs to obtain disaster relief funds.
               A Federal grand jury indicted the individual for fraudulently obtaining over $35,000 in disaster
               relief funds. He pled guilty in September 2006 to mail fraud and identity theft, and is scheduled
               for sentencing in January 2007.

               Man Indicted for Hurricane-Related Identity Theft and Mail Fraud
               This case was jointly investigated by our Dallas Office, GAO, the DHS OIG, and the USPIS.
               An individual allegedly submitted 18 separate applications throughout Texas and Louisiana
               for the purpose of obtaining disaster relief funds. In these applications, he allegedly made false
               statements regarding his employment and finances, using other individuals’ SSNs and addresses.
               Agents arrested him on charges of identity theft, mail fraud, and wire fraud.
               In May 2006, he was indicted for fraudulently obtaining over $36,000 in disaster relief funds.
               A trial date has been set for December 2006.

               SSA’s Service Delivery to Individuals and Beneficiaries Affected by Hurricanes
               Katrina and Rita
               In this review, we assessed SSA’s service delivery to individuals affected by Hurricanes Katrina
               and Rita, as well as the Agency’s plans to ensure that payments made under emergency procedures
               were appropriate and properly safeguarded. Approximately 1 million beneficiaries and recipients
               receiving approximately $700 million in monthly benefit payments were affected by Hurricanes
               Katrina and Rita. Also as a result of these hurricanes, over 1,200 SSA employees were displaced,
               and numerous SSA facilities were damaged and left inoperable.
               To ensure that affected individuals received continued service, SSA took proactive steps, including
               implementing emergency procedures, locating employees, and beginning recovery of operations



32 •  People
April 1, 2006 thru September 30, 2006	                          SSA Office of the Inspector General




for facilities damaged by the storms. SSA also continued its service delivery to beneficiaries
and recipients, expending funds as needed to address emergency requirements.
As a result of our review, we made several recommendations, including that SSA emphasize
the importance and use of its emergency contact procedures and National Emergency Toll-
Free Number annually and prior to anticipated emergencies. We also recommended that
SSA ensure that staff follow procedures for issuing SSN verification printouts, and establish
procedures to ensure that all costs associated with a particular disaster can be readily tracked
and reported. SSA agreed with our recommendations.




                        A Special Thank You
  The diligent work, outstanding efforts, and many contributions of our
  entire OIG staff make the numerous accomplishments highlighted
  in this Semiannual Report to Congress possible.
  We would like to thank them for their dedicated spirit and many
  successes.




                                                                                                   People  •    33
Semiannual Report to Congress	   April 1, 2006 thru September 30, 2006
April 1, 2006 thru September 30, 2006	    SSA Office of the Inspector General




                         Reporting Requirements
                                   and
                              Appendices




                                                         Reporting Requirements  •   35
              Semiannual Report to Congress	                                    April 1, 2006 thru September 30, 2006




              Reporting Requirements
              This report meets the requirements of the Inspector General Act of 1978, as amended, and
              includes information mandated by Congress.



                     Section                               Requirement                                 Page(s)

                  Section 4(a)(2)       Review of legislation and regulations                            N/A


                  Section 5(a)(1)       Significant problems, abuses, and deficiencies                   8-30


                  Section 5(a)(2)       Recommendations with respect to significant problems,
                                                                                                         8-30
                                        abuses, and deficiencies

                  Section 5(a)(3)       Recommendations described in previous Semiannual             Appendices F
                                        Reports on which corrective actions are incomplete              &G

                  Section 5(a)(4)       Matters referred to prospective authorities and the
                                                                                                         13-30
                                        prosecutions and convictions that have resulted

                 Section 5(a)(5) &
                                        Summary of instances where information was refused               N/A
                  Section 6(b)(2)


                  Section 5(a)(6)       List of audits                                                Appendix B


                  Section 5(a)(7)       Summary of particularly significant reports                      8-24

                                        Table showing the total number of audit reports and
                  Section 5(a)(8)                                                                     Appendix A
                                        total dollar value of questioned costs

                                        Table showing the total number of audit reports and
                  Section 5(a)(9)                                                                     Appendix A
                                        total dollar value of funds put to better use

                                        Audit recommendations more than 6 months old for
                  Section 5(a)(10)                                                                    Appendix A
                                        which no management decision has been made

                                        Significant management decisions that were revised
                  Section 5(a)(11)                                                                       N/A
                                        during the reporting period

                                        Significant management decisions with which the
                  Section 5(a)(12)                                                                    Appendix D
                                        Inspector General disagrees




36  •  Reporting Requirements
 April 1, 2006 thru September 30, 2006	                                 SSA Office of the Inspector General




Appendix A: Resolving Audit Recommendations
The following chart summarizes SSA’s responses to our recommendations for the recovery or redirection
of questioned and unsupported costs. Questioned costs are those costs that are challenged because of a
violation of law, regulation, etc. Unsupported costs are those costs that are questioned because they are
not justified by adequate documentation. This information is provided in accordance with P.L. 96- 304
(the Supplemental Appropriations and Recession Act of 1980) and the Inspector General Act of 1978, as
amended.


                    Reports with Questioned Costs for the Reporting Period
                              April 1, 2006 through September 30, 2006
                                                        Number Value Questioned Value Unsupported
  A.	For which no management decision had been made
                                                            7                 $80,252,566                 $2,704,214
     by the commencement of the reporting period.

  B.	 Which were issued during the reporting period.       13a             $1,277,539,460                     $58,531

  				              Subtotal (A + B)                       20              $1,357,792,026                 $2,762,745

  	 Less:

  C.	 For which a management decision was made
                                                           14b             $1,315,701,382                 $2,762,745
      during the reporting period.

  	 i.	 Dollar value of disallowed costs.                   9              $1,203,388,033                 $2,719,081

  	 ii.	 Dollar value of costs not disallowed.              5                $112,313,349                     $43,664

  D.	For which no management decision had been made
                                                            7                 $42,090,644                         $0
     by the end of the reporting period.


­a. 	 See Reports with Questioned Costs in Appendix B of this report.
­b. Restitution of Misused Funds to Beneficiaries Under Public Law 108-203 (A-09-05-15139) contained dollars
    that were disallowed and dollars not disallowed.




                                                                                                      Appendices  • 37
                    Semiannual Report to Congress	                                       April 1, 2006 thru September 30, 2006




   The following chart summarizes SSA’s response to our recommendations that funds be put to better use
   through cost avoidances, budget savings, etc.


                     Reports with Recommendations that Funds Be Put to Better Use
                      Reporting Period April 1, 2006 through September 30, 2006
                                                                                         Number          Dollar Value
     A.	For which no management decision had been made by the
                                                                                            1                     $209,861
        commencement of the reporting period.

     B.	 Which were issued during the reporting period.                                    12a             $2,588,276,684

     			 Subtotal (A + B)                                                                   13             $2,588,486,545

     	 Less:

     C.	 For which a management decision was made during the reporting period.

       i.	Dollar value of recommendations that were agreed to by management.

             (a) Based on proposed management action.                                       11             $2,411,237,874

             (b) Based on proposed legislative action.                                      0                            $0

       ii.	     Dollar value of costs not agreed to by management.                          1                $172,648,516

     	 Subtotal (i + ii)                                                                    12             $2,583,886,390

     D.	For which no management decision had been made by the end of the
                                                                                            1                   $4,600,155
        reporting period.


      ­a.	      See Reports with Funds Put to Better Use in Appendix B of this report.




38  •  Appendices
April 1, 2006 thru September 30, 2006	                                             SSA Office of the Inspector General




Appendix B: Reports Issued
                               Reports with Non-Monetary Findings
                              October 1, 2005 through September 30, 2006
Audit Number                                               Report                                              Issue Date

   A-15-05-15115     Performance Indicator Audit: Continuing Eligibility                                        10/4/2005


   A-15-05-15118     Performance Indicator Audit: Overall Service Rating                                        10/4/2005


   A-15-05-15114     Performance Indicator Audit: Claims Processing                                             10/27/2005


   A-13-05-15031     The Social Security Administration’s Office of Systems’ Training Program                   10/28/2005

                     Inspector General Statement on the Social Security Administration’s Major
   A-02-06-16050                                                                                                11/9/2005
                     Management Challenges

   A-15-05-15130     Oversight of the Fiscal Year 2005 Financial Statement Audit                                11/9/2005


   A-01-05-15026     Administrative Costs Claimed by the Maine Disability Determination Services                11/14/2005


   A-05-05-15013     Administrative Costs Claimed by the Wisconsin Disability Determination Bureau              11/22/2005


   A-09-05-15099     Universities’ Use of Social Security Numbers as Student Identifiers in Region IX           11/30/2005


   A-15-05-15117     Performance Indicator Audit: Social Security Numbers and Earnings Processing               11/30/2005

                     Management Advisory Report: Single Audit of the State of Indiana for the Fiscal Year
   A-77-06-00001                                                                                                12/6/2005
                     Ended June 30, 2004
                     Costs Claimed by the Virginia Commonwealth University Contract Number 600-99-
   A-15-06-16033                                                                                                12/13/2005
                     38679 (Limited Distribution)
                     Assessment of the Adequacy of the Social Security Administration’s Controls Over the
   A-14-05-15078                                                                                                12/21/2005
                     Use of Signature Proxies on Applications for Benefits (Limited Distribution)
                     Management Advisory Report: Single Audit of the State of South Carolina for the
   A-77-06-00002                                                                                                12/21/2005
                     Fiscal Year Ended June 30, 2004
                     Management Advisory Report: Single Audit of the State of New York for the Fiscal Year
   A-77-06-00003                                                                                                12/21/2005
                     Ended March 31, 2004
                     Office of Hearings and Appeals Reversal of Disability Denial Decisions Involving
   A-07-05-15091                                                                                                1/20/2006
                     Investigative Information from Cooperative Disability Investigations Units

   A-13-05-15047     Representative Payees Receiving Benefits for Children in Foster Care                       1/20/2006


   A-02-05-15125     The Social Security Administration’s Ticket to Work - Ticket Assignments                   1/24/2006

                     The Social Security Administration’s Identification of Special Disability Workload
   A-13-05-15028                                                                                                1/24/2006
                     Cases

   A-15-05-15113     Performance Indicator Audit: Hearings and Appeals Process                                  1/24/2006




                                                                                                                 Appendices  • 39
               Semiannual Report to Congress	                                                    April 1, 2006 thru September 30, 2006




                                   Reports with Non-Monetary Findings
                                  October 1, 2005 through September 30, 2006
    Audit Number                                              Report                                               Issue Date

      A-08-06-26011   Physical Security at the Southeastern Program Service Center (Limited Distribution)           1/25/2006


      A-02-05-15116   Performance Indicator Audit: Outstanding Debt                                                 1/27/2006


      A-08-06-16056   Hospitals’ Use and Protection of Social Security Numbers                                      1/27/2006

                      Management Advisory Report: Single Audit of the State of Illinois for the Fiscal Year
      A-77-06-00006                                                                                                 2/10/2006
                      Ended June 30, 2004
                      Management Advisory Report: Single Audit of the State of Oklahoma for the Fiscal Year
      A-77-06-00007                                                                                                 2/10/2006
                      Ended June 30, 2004
                      Disclosure Statement for MAXIMUS’ Human Services Operations Segment Effective
      A-15-06-26026                                                                                                 2/17/2006
                      October 1, 2002
                      Management Advisory Report: Single Audit of the State of Pennsylvania for the Fiscal Year
      A-77-06-00008                                                                                                  3/7/2006
                      Ended June 30, 2004

      A-03-05-15087   Suspended and Nonwork Wages in the Social Security Administration’s Payroll                   3/13/2006


      A-13-05-21521   The Social Security Administration’s Nationwide Asbestos Program                              3/23/2006

                      Assessing the Application Controls for the Social Security Administration’s Integrated
      A-14-05-15064                                                                                                 3/23/2006
                      Disability Management System

      A-07-06-26009   The Social Security Administration’s Independence Day Assessment                              3/24/2006

                      Management Advisory Report: Single Audit of the State of New Jersey for the Fiscal Year
      A-77-06-00009                                                                                                 3/24/2006
                      Ended June 30, 2004
                      Management Advisory Report: Single Audit of the State of the Michigan Department of
      A-77-06-00010                                                                                                 3/27/2006
                      Human Services for the 2-Year Period Ended September 30, 2004

      A-09-06-26010   Representative Payee Onsite Reviews of State Institutions                                     4/20/2006


      A-01-06-15067   Physical Security at Remote Hearing Sites in Region I (Limited Distribution)                  4/21/2006


      A-08-06-26003   Follow-up of the Enumeration at Birth Program                                                 4/27/2006


      A-12-06-16045   Physical Security at Remote Hearing Sites in Region VIII (Limited Distribution)               4/27/2006

                      Disposal of Sensitive Documents at the Social Security Administration (Limited
      A-15-06-26014                                                                                                 5/10/2006
                      Distribution)

      A-02-06-16064   Physical Security at Remote Hearing Sites in Region II (Limited Distribution)                 5/18/2006


      A-05-06-16063   Physical Security at Remote Hearing Sites in Region V (Limited Distribution)                  5/18/2006




40  •  Appendices
April 1, 2006 thru September 30, 2006	                                           SSA Office of the Inspector General




                               Reports with Non-Monetary Findings
                              October 1, 2005 through September 30, 2006
Audit Number                                             Report                                             Issue Date

  A-06-06-16076   Physical Security at Remote Hearing Sites in Region VI (Limited Distribution)               5/19/2006

                  Scott County Community Services Department, A Fee-for-Service Representative Payee for
  A-07-06-16040                                                                                               6/5/2006
                  the Social Security Administration

  A-12-06-16013   Demonstration Project for Non-Attorney Representatives                                      6/5/2006


  A-15-06-16018   MAXIMUS’ Indirect Cost Rates for Fiscal Years 2000 and 2001 (Limited Distribution)          6/6/2006


  A-03-06-16044   Physical Security at Remote Hearing Sites in Region III (Limited Distribution)              6/8/2006


  A-05-05-15135   Administrative Costs Claimed by the Indiana Disability Determination Bureau                 6/12/2006


  A-04-06-16074   Physical Security at Remote Hearing Sites in Region IV (Limited Distribution)               6/15/2006


  A-12-06-26012   Case Processing and Management System and Workload Management                               6/15/2006


  A-14-06-16049   Implementation of Workers’ Compensation in Title II Redesign Release 3                      6/15/2006


  A-08-05-15138   Employers with the Most Wage Items in the Nonwork Alien File                                6/19/2006

                  Follow-up Audit: Information System Controls of the Social Security Administration’s
  A-14-06-16114                                                                                               6/26/2006
                  Representative Payee System

  A-03-05-25038   Self-Employment Income Earnings Suspense File                                               6/27/2006


  A-07-06-16081   Physical Security at Remote Hearing Sites in Region VII (Limited Distribution)              6/29/2006


  A-02-06-16080   Physical Security at the Northeastern Program Service Center (Limited Distribution)         7/13/2006

                  The Social Security Administration’s Program for Issuing Replacement Social Security
  A-08-06-16025                                                                                               7/13/2006
                  Cards to Prisoners
                  Congressional Response Report: Compliance with Employment Evidence Requirements
  A-08-06-16075                                                                                               7/20/2006
                  for F-1 Students

  A-05-06-16079   Physical Security at the Great Lakes Program Service Center (Limited Distribution)          7/31/2006

                  Case Management Procedures at the Hearing Office in Creve Coeur, Missouri (Limited
  A-07-06-26060                                                                                               8/2/2006
                  Distribution)

  A-09-06-16078   Physical Security at Remote Hearing Sites in Region X (Limited Distribution)                8/7/2006


  A-12-06-26048   Digital Recording Acquisition Project (Limited Distribution)                                8/7/2006




                                                                                                               Appendices  • 41
               Semiannual Report to Congress	                                                     April 1, 2006 thru September 30, 2006




                                     Reports with Non-Monetary Findings
                                    October 1, 2005 through September 30, 2006
     Audit Number                                               Report                                               Issue Date

       A-09-06-16077    Physical Security at Remote Hearing Sites in Region IX (Limited Distribution)                  8/10/2006

                        The Social Security Administration’s Controls over the Assignment of Nonwork Social
       A-04-06-16052                                                                                                   8/18/2006
                        Security Numbers

       A-13-06-36126    Peer Review of the Treasury Office of Inspector General (Limited Distribution)                 8/18/2006


       A-08-06-16082    Prisoners’ Access to Social Security Numbers                                                   8/23/2006


       A-05-06-26058    Follow-up Review of Controls over Supplemental Security Income Replacement Checks              9/6/2006

                        The Social Security Administration’s Service Delivery to Individuals and Beneficiaries
       A-06-06-26072                                                                                                   9/11/2006
                        Affected by Hurricanes Katrina and Rita

       A-07-06-16095    Physical Security at the Mid-America Program Service Center (Limited Distribution)             9/11/2006

                        The Social Security Administration’s Electronic Mail Security Review (Limited
       A-14-06-16047                                                                                                   9/18/2006
                        Distribution)
                        The Social Security Administration’s Implementation of Earned Value Management
       A-14-06-26085                                                                                                   9/18/2006
                        Systems
                        Follow-up on Internal Controls over the Processing of Social Security Number Cards
       A-15-06-16087                                                                                                   9/18/2006
                        (Limited Distribution)

       A-15-06-16107    Performance Indicator Audit: Supplemental Security Income Payment Accuracy                     9/18/2006

       A-15-06-16112    Performance Indicator Audit: Management Information Systems and Mainframe
                                                                                                                       9/18/2006
                        Protection
                        Fiscal Year 2006 Evaluation of the Social Security Administration’s Compliance with the
       A-14-06-16084                                                                                                   9/22/2006
                        Federal Information Security Management Act

       A-14-07-27068    Assessing Social Security Administration’s Efforts to Protect Sensitive Information            9/22/2006


       A-02-06-16108    Performance Indicator Audit: 800-Number Access                                                 9/25/2006


       A-03-06-26096    Effectiveness of Decentralized Correspondence Sent to Employers                                9/25/2006

                        The Social Security Administration’s Oversight of the Dell Workstation Blanket Purchase
       A-15-06-16073    Agreements under the General Services Administration’s Schedule Contract GS-35-F-              9/25/2006
                        4076D

       A-03-06-36122    Congressional Response Report: Monitoring the Use of Employee Verification Programs            9/26/2006

                        Ticket to Work – Operations Support Manager for Vocational Rehabilitation Agencies and
       A-02-06-16017                                                                                                   9/27/2006
                        Employment Networks




42  •  Appendices
April 1, 2006 thru September 30, 2006	                                           SSA Office of the Inspector General




                                     Reports with Questioned Costs
                                 October 1, 2005 through September 30, 2006
Audit Number Issue Date                                             Report                                      Dollar Amount
                                    Administrative Costs Claimed by the Arkansas Disability Determination
   A-06-05-15077    10/11/2005                                                                                             $2,196
                                    Services
                                    Administrative Costs Claimed by the District of Columbia Disability
   A-15-05-30018     11/8/2005                                                                                          $1,311,372
                                    Determination Division for Fiscal Years 2001 and 2002
                                    Administrative Costs Claimed by the Louisiana Disability
   A-06-05-15032    11/28/2005                                                                                           $120,222
                                    Determination Services
                                    The Social Security Administration’s Controls over the Write-off of Title
   A-04-05-15041     1/20/2006                                                                                         $49,067,615
                                    XVI Overpayments
                                    Administrative Costs Claimed by the Oklahoma Disability
   A-07-05-15102     1/24/2006                                                                                             $1,095
                                    Determination Services
                                    Management Advisory Report: Single Audit of the State of Texas for the
   A-77-06-00004     1/31/2006                                                                                             $4,508
                                    Fiscal Year Ended August 31, 2004
                                    Management Advisory Report: Single Audit of the State of Wisconsin
   A-77-06-00005     1/31/2006                                                                                            $43,664
                                    for the Fiscal Year Ended June 30, 2004
                                    The Social Security Administration’s Controls over the Old-Age,
   A-13-05-15027     2/1/2006                                                                                          $11,146,465
                                    Survivors and Disability Insurance Waiver Approval Process
                                    Administrative Costs Claimed by the North Carolina Disability
   A-04-05-15040     3/13/2006                                                                                          $4,134,902
                                    Determination Services
                                    The Social Security Administration’s Decisions to Terminate Collection
   A-13-05-15029     3/22/2006                                                                                         $29,532,455
                                    Efforts for Old-Age, Survivors and Disability Insurance Overpayments
                                    Administrative Costs Claimed by the Texas Disability Determination
   A-06-06-16008     3/23/2006                                                                                           $778,111
                                    Services
                                    Congressional Response Report: Overpayments in the Social Security
   A-01-04-24065     4/3/2006                                                                                       $1,156,689,420
                                    Administration’s Disability Programs
                                    Administrative Costs Claimed by the Virginia Disability Determination
   A-13-05-15134     5/19/2006                                                                                           $288,841
                                    Services

   A-06-05-25136     5/23/2006      Survivor Beneficiaries Enumerated After the Wage Earner’s Death                     $4,678,333

                                    Controls Over Old-Age, Survivors, and Disability Insurance
   A-02-05-15080     5/31/2006                                                                                           $549,849
                                    Replacement Checks

   A-09-05-15143     6/5/2006       Payments to Surviving Spouses at Retirement Age                                    $62,448,596

                                    Match of Veterans Affairs’ Historical Death File against the Social
   A-01-05-35086     6/14/2006                                                                                         $11,167,668
                                    Security Administration’s Benefit Rolls

   A-01-06-26004     8/7/2006       Benefits Paid to Dually Entitled Title II Beneficiaries                            $22,988,306


   A-01-06-26022     8/10/2006      Beneficiaries Paid Under More than One Social Security Number                       $6,128,725

                                    Restitution of Misused Funds to Beneficiaries Under Public Law 108-
   A-09-05-15139     8/17/2006                                                                                           $404,408
                                    203




                                                                                                                  Appendices  • 43
               Semiannual Report to Congress	                                              April 1, 2006 thru September 30, 2006




                                       Reports with Questioned Costs
                                   October 1, 2005 through September 30, 2006
    Audit Number Issue Date                                        Report                                    Dollar Amount

      A-08-05-25145    8/18/2006      Improperly Paid Lump-Sum Death Payments                                         $570,597

                                      Federal Employees’ Compensation Act - Social Security Administration
      A-15-06-26123    9/25/2006                                                                                      $703,626
                                      Employees
                                      Survivor Benefits Paid in Instances When the Social Security
      A-06-06-26020    9/26/2006      Administration Removed the Death Entry from a Primary Wage                    $8,781,850
                                      Earner’s Record

      A-12-06-20016    9/27/2006      Controls Over Multiple Payments to Attorneys                                  $2,197,772


                                                                                            TOTAL:             $1,373,740,596




44  •  Appendices
April 1, 2006 thru September 30, 2006	                                            SSA Office of the Inspector General




                                Reports with Funds Put to Better Use
                                October 1, 2005 through September 30, 2006
Audit Number Issue Date                                            Report                                   Dollar Amount
                                   Administrative Costs Claimed by the Arkansas Disability Determination
  A-06-05-15077    10/11/2005                                                                                            $211,122
                                   Services
                                   Administrative Costs Claimed by the District of Columbia Disability
  A-15-05-30018    11/8/2005                                                                                             $257,750
                                   Determination Division for Fiscal Years 2001 and 2002
                                   Administrative Costs Claimed by the Oklahoma Disability
  A-07-05-15102    1/24/2006                                                                                             $207,940
                                   Determination Services
                                   Administrative Costs Claimed by the North Carolina Disability
  A-04-05-15040    3/13/2006                                                                                             $689,211
                                   Determination Services
                                   Administrative Costs Claimed by the Texas Disability Determination
  A-06-06-16008    3/23/2006                                                                                              $40,157
                                   Services

  A-01-04-24065     4/3/2006       Congressional Response Report: Overpayments in the Social Security
                                                                                                                 $2,143,941,739
                                   Administration’s Disability Programs

  A-09-05-15144    4/12/2006       Concurrent Title II and Title XVI Beneficiaries Receiving
                                                                                                                   $203,163,408
                                   Representative Payee and Direct Payments
                                   Payments Resulting from Disability Insurance Actions Processed via the
  A-04-05-15042    4/20/2006       Social Security Administration’s Manual Adjustment, Credit and Award             $19,650,378
                                   Processes
  A-07-05-15095    5/10/2006       Impact of Statutory Benefit Continuation on Supplemental Security
                                                                                                                   $172,648,516
                                   Income Payments Made During the Appeals Process

  A-09-05-25020    5/18/2006       Beneficiaries in Suspended Payment Status Pending the Selection of a
                                                                                                                    $15,606,100
                                   Representative Payee

  A-13-05-15134    5/19/2006       Administrative Costs Claimed by the Virginia Disability Determination
                                                                                                                         $733,732
                                   Services

  A-01-05-35086    6/14/2006       Match of Veterans Affairs’ Historical Death File against the Social
                                                                                                                        $1,940,796
                                   Security Administration’s Benefit Rolls

  A-08-06-16024    6/26/2006       Supplemental Security Income Overpayments to Recipients in Title XIX
                                                                                                                        $9,917,860
                                   Institutions

  A-01-06-26004     8/7/2006       Benefits Paid to Dually Entitled Title II Beneficiaries                          $14,653,420

  A-01-06-26022    8/10/2006       Beneficiaries Paid Under More than One Social Security Number                         $849,983

  A-08-05-25145    8/18/2006       Improperly Paid Lump-Sum Death Payments                                               $570,597

                                   Survivor Benefits Paid in Instances When the Social Security
  A-06-06-26020    9/26/2006       Administration Removed the Death Entry from a Primary Wage                           $4,600,155
                                   Earner’s Record

                                                                                             TOTAL:            $2,589,682,864




                                                                                                                Appendices  • 45
              Semiannual Report to Congress	                                     April 1, 2006 thru September 30, 2006




    Appendix C: Reporting Requirements Under the
    Omnibus Consolidated Appropriations Act for FY 1997
    To meet the requirements of the Omnibus Consolidated Appropriations Act of 1997, P.L. 104-208, we are
    providing requisite data for FY 2006 from the Offices of Investigations and Audit in this report.
    Office of Investigations
    We are reporting over $28 million in SSA funds as a result of our investigative activities in this reporting
    period. These funds are broken down in the table below.


                                               Investigative Activities

                         1st Quarter        2nd Quarter         3rd Quarter         4th Quarter            Total
      Court Ordered
                              $4,505,643          $4,999,354        $4,293,254           $5,019,658      $18,817,909
       Restitution

        Recoveries            $8,401,105          $9,790,749        $8,879,340           $8,421,120      $35,492, 314


          Fines                $421,128            $371,230           $525,244            $684,259        $2,001,861

       Settlements/
                               $320,618            $717,538           $461,719            $139,844        $1,639,719
        Judgments

         TOTAL               $13,648,494         $15,878,871       $14,159,557         $14,264,881       $57,951,803



    Office of Audit
    SSA management has informed us that it has completed implementing recommendations from 16 audit reports
    during this time period valued at over $3 billion.

    Supplemental Security Income Overpayments to Recipients in Title XIX Institutions
    (A-08-06-16024, 6/26/2006)
    We recommended that SSA establish methods by which field office personnel should promptly resolve diary alerts
    resulting from recipients’ admissions to Title XIX institutions and monitor compliance with these procedures. The
    implemented recommendation is valued at over $9.9 million.

    Administrative Costs Claimed by the Virginia Disability Determination
    Services (VA-DDS) (A-13-05-15134, 5/19/2006)
    We recommended that SSA withdraw VA-DDS funding authorization of $225,000 and $508,732 for FYs 2003
    and 2004, respectively, for the unsupported obligations.




46  •  Appendices
April 1, 2006 thru September 30, 2006	                              SSA Office of the Inspector General




Beneficiaries in Suspended Payment Status Pending the Selection of a Representative
Payee (A-09-05-25020, 5/18/2006)
We recommended that SSA emphasize to the field office employees the importance of resolving representative
payee development issues as quickly as possible. We also recommended that SSA remind field office employees
that competent adult beneficiaries should be paid directly unless doing so would cause the beneficiary substantial
harm. We also recommended that SSA remind field office employees that benefits must be reinstated after 1 month
unless the beneficiary is legally incompetent, under the age of 15 years, or has an alcoholism or drug addiction
condition. The implemented recommendation is valued at over $15.6 million.

Payments Resulting from Disability Insurance Actions Processed via the Social Security
Administration’s Manual Adjustment, Credit and Award Processes (MADCAP)
(A-04-05-15042, 4/20/2006)
We recommended that SSA issue a reminder and, if necessary, further guidance to responsible program service
center staff requiring that all underlying actions resulting in MADCAP payments be verified to the supporting
documentation. The implemented recommendation is valued at $19,650,378.

Concurrent Title II and Title XVI Beneficiaries Receiving Representative Payee and
Direct Payments (A-09-05-15144, 4/12/2006)
We recommended that SSA develop a systems edit/alert to prevent and/or detect instances in which concurrent
payments are made directly to a beneficiary and a representative payee. We also recommended that SSA determine
whether the 11,399 concurrent beneficiaries should have their benefits paid directly or through a representative
payee. The implemented recommendation is valued at $203,163,408.

Administrative Costs Claimed by the North Carolina Disability Determination
Services (NC-DDS) (A-04-05-15040, 3/13/06)
We recommended that SSA instruct the NC-DDS to return the $689,211 that remains unused in its FYs
2001 – 2003 Automated Standard Application for Payments (ASAP) accounts.

Administrative Costs Claimed by the Oklahoma Disability Determination Services
(A-07-05-15102, 1/24/06)
We recommended that the SSA Regional Commissioner rescind the excess ASAP funding authority of $33,598
and $174,342 for FYs 2003 and 2004, respectively.

Administrative Costs Claimed by the District of Columbia Disability Determination
Division for Fiscal Years 2001 and 2002 (A-15-05-30018, 11/8/2005)
We recommended that SSA work with DHS to determine the validity of net unsupported costs of $376,416
and $1,086,604 for FY 2001 and 2002, respectively, and require DHS to refund any disbursements claimed for
which support can not be provided.




                                                                                                  Appendices  • 47
               Semiannual Report to Congress	                                    April 1, 2006 thru September 30, 2006




   Administrative Costs Claimed by the Arkansas Disability Determination Services
   (AR-DDS) (A-06-05-15077, 10/11/05)
   We recommended that SSA instruct the AR–DDS to de-obligate the $20,000 from the FY 2003 SSA-4513. We also
   recommend SSA instruct AR–DDS to conduct reviews of the Consultative Examination fee schedule and update rates
   on an on-going basis to ensure fees do not exceed allowable limits such as the $191,122 identified in this report.

   The Effectiveness of the Social Security Administration’s Controls over Title II
   Unnegotiated Checks (A-02-05-15079, 9/19/05)
   We recommended that SSA review and take appropriate action to address the 18 cases we identified where unnegotiated
   checks continue. The implemented recommendation is valued at $734,000.

   Administrative Costs Claimed by the Pennsylvania Bureau of Disability Determination
   (A-15-04-14080, 8/31/05)
   We recommended that SSA improve internal controls over the obligation process to ensure only properly supported
   obligations are recorded and de-obligate the invalid move/expansion unliquidated obligations of $770,775 for FY 2002
   and $1,381,094 for FY 2003.

   Individuals Receiving Benefits Under Multiple Social Security Numbers at the Same
   Address (A-01-05-25002, 4/29/2005)
   We recommended that SSA develop a match to identify and prevent beneficiaries inappropriately receiving both OASDI
   benefits and SSI payments under different SSNs. The implemented recommendation is valued at $786,864

   Social Security Number Cards Issued After Death (A-06-03-13078, 4/20/05)
   We recommended that SSA review its procedures for paying survivor’s payments to auxiliaries when evidence indicates
   that the numberholder is not deceased. The implemented recommendation is valued at $720,000.

   Indirect Costs Claimed by the Arizona Disability Determination Services
   (A-09-04-14010, 3/28/2005)
   We recommended that SSA ensure the Department of Economic Security revises its cost allocation plan to require all
   programs that benefit from expenditures in the departmental and State wide indirect cost pools receive an appropriate
   allocation of indirect costs. The implemented recommendation is valued at $610,000.

   The Social Security Administration’s Clean-Up of Title II Disability Insurance Cases with
   a Workers’ Compensation Offset (A-04-03-13042, 10/14/04)
   We recommended that SSA evaluate the effectiveness of the procedures implemented to improve the payment accuracy
   of the Workers’ Compensation workload and implement new or additional procedures, as necessary. The implemented
   recommendation is valued at $87.5 million.

   The Social Security Administration Can Recover Millions in Medicare Premiums Related
   to Retirement or Disability Payments Made after Death (A-08-02-12029, 7/3/02)
   We recommended that SSA calculate the amount of unrecovered Medicare premiums it withheld from deceased
   beneficiaries and remitted to CMS. SSA calculated that the amount totaled $2.7 billion, including lost interest.


48  •  Appendices
April 1, 2006 thru September 30, 2006	                          SSA Office of the Inspector General




      Appendix D: Significant Management Decisions With Which the
      Inspector General Disagrees
      Employers with the Most Wage Items in the Nonwork Alien File
      (A-08-05-15138, 6/19/06)
      Recommendation: We recommended that SSA consider informing numberholders that: 1) the
      Agency has recorded their earnings under an SSN assigned for nonwork purposes; 2) DHS has
      been notified of the unauthorized work; and 3) they should visit an SSA field office and provide
      proof of DHS work authorization status if their status has changed since the nonwork SSN was
      assigned.
      Agency Response: SSA disagreed. SSA believes that the proposed actions would have a minimal
      effect on SSA program administration while creating a substantial workload, both in systems
      development and in SSA’s field offices.
      In the body of the report, the OIG suggested that SSA use the Social Security Statement as a
      vehicle to notify individuals assigned a “nonwork” number when SSA has recorded earnings under
      their number and that DHS will be notified. However, the 4-page Social Security Statement is a
      carefully crafted document that was developed as a public education and financial planning tool to
      be used by all workers in this country. We do not believe it would be prudent to devote resources
      to a separate mailing of the Statement tailored specifically to those individuals who have earnings
      and whose original Social Security card was a “nonwork” card, as such individuals represent less
      than one-half of one percent of the 144 million annual Statements mailed in 2005. Nor do we
      believe it is prudent to develop and send a new letter to the more than 500,000 individuals who have
      earnings and whose original Social Security Card was issued with the “nonwork” legend. Moreover,
      as OIG has noted in its report, many such individuals are, in fact, authorized to work.
      In addition, SSA currently informs all number holders how to notify SSA of any changes to
      their record through the instructions attached to the Social Security card (reverse side of form
      SSA- 000). Those instructions state,“You should contact us to update your Social Security number
      records if your name, your U.S. citizenship status, or your status as an alien in the U.S. changes.
      You will need to file an application for corrected Social Security card and provide proof of your
      identity, and we may request certain other evidence supporting the change.” The instructions further
      state, “If you are an alien without permission to work in the U.S., your Social Security card will
      be marked ‘NOT VALID FOR EMPLOYMENT.’ We will notify U.S. immigration officials if
      you use the number to work.”
      Recommendation: We recommended that SSA consider examining its interpretation of existing
      disclosure laws and, if necessary, seek legislative authority that would allow the Agency to disclose
      nonwork status to employers.
      Agency Response: SSA disagreed. In the audit report, OIG did not cite Section 6103 of the
      Internal Revenue Code as a basis for withholding “nonwork” status from employers. Section 6103
      of the Internal Revenue Code is the statutory provision that prevents disclosure of tax information,
      including earnings information collected by SSA from employers as part of the wage reporting process.
      That provision, however, does not apply to records pertaining to work status. Work status records



                                                                                              Appendices  • 49
              Semiannual Report to Congress	                                      April 1, 2006 thru September 30, 2006




           are included in the application for an SSN, and are thus included in the Privacy Act system of
           records Master Files of SSN Holders and SSN Applications, 60-0058, commonly referred to
           as the Numident. As discussed in detail below, the Privacy Act prevents the disclosure of such
           information. Under the Privacy Act routine use provision (5 U.S.C. § 552a(b)(3)), SSA may
           disclose information for a purpose compatible with the purpose for which we collect and maintain
           information. Section 401.150 of SSA disclosure regulations that implement the Privacy Act
           (20 C.F.R. Part 401) provides that SSA may disclose information where necessary to carry out
           SSA’s programs. SSA collects enumeration information in order to assign SSNs, which in turn
           allows SSA to record wage credits to the appropriate earnings file. Thus, SSA verifies SSNs for
           employers solely to ensure the records of the current or former employees (or for individuals
           whom an employer has made a commitment to hire) are correct for the purpose of completing
           Internal Revenue Service Forms W-2 (Wage and Tax Statement). The SSN verifications allow
           SSA to properly credit employees’ earnings records, which will be important information in
           determining their Social Security benefits in the future.	
           In order for SSA to be able to disclose “nonwork” status to employers for whom the Agency verifies SSNs,
           SSA must be able to establish that the disclosure of that specific information meets the compatibility
           standard in both the Privacy Act (5 U.S.C. § 522a(a)(7)) and SSA’s disclosure regulations noted above.
           SSA collects this information as part of the enumeration process only in order to issue SSNs and to
           ensure proper wage reporting needed to accomplish our core mission. Maintaining the integrity of the
           SSN record is of paramount concern for SSA. DHS has purview over the authorization, collection, and
           maintenance of information related to work eligibility. Thus, current work authorization status can be
           verified only by DHS. Because SSA does not have the authority to investigate, verify, or enforce work
           authorization status, SSA cannot establish the requisite compatibility needed to disclose “nonwork”
           status to employers. Even if SSA has legislative authority for this purpose, with such authority, however,
           the information would be of questionable value, because SSA’s records often do not reflect the current
           status of this information. SSA only collects this information at enumeration and often does not receive
           notification of changes in status from the individual until they apply for benefits. Thus, the information
           would only be of limited value. In addition, disclosing incorrect “nonwork” status information to an
           employer could have a negative impact on the Agency. For example, confusion over incorrect work status
           information could lead to improper terminations of employees authorized to work. SSA could then be
           viewed by the public as having been responsible for the improper termination. Such incidents could in
           turn lead to adverse publicity for SSA. Disclosures of incorrect information could also lead to numerous
           additional visits to field offices, distracting the Agency from its core mission of administering the Social
           Security program. As noted above, verifying current work status information is one of the missions of
           DHS. Therefore, SSA should not seek legislative authority for this matter.




50  •  Appendices
 April 1, 2006 thru September 30, 2006	                                SSA Office of the Inspector General




Appendix E: Collections From Investigations and Audits
The Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) requires us to report
additional information concerning actual cumulative collections and offsets achieved as a result
of OIG activities each semiannual period.


Office of Investigations



               Total Restitution Reported by DOJ as Collected for SSA

                      Total Number of
                                                       Court Ordered
                    Individuals Assigned                                         Total Restitution
        FY                                               Restitution
                       Court Ordered                                             Collected by DOJ
                                                       for This Period
                         Restitution
       2004                     700                             $24,309,652                  $2,307,487

       2005                     661                             $22,292,757                  $1,753,601

       2006                     578                             $18,817,909                 $1,040,3051

       TOTAL                  1,939                             $65,420,318                 $5,101,393

   1
    Reflects collection for October 1, 2005 – June 30, 2006 .




                        Recovery Actions Based on OI Investigations

                         Total Number of Recovery
         FY                                                            Amount for Recovery
                             Actions Initiated

         2004                          1,861                                  $32,706,653

         2005                          1,686                                  $30,908,777

         2006                          1,865                                  $35,492,314

        TOTAL                          5,412                                  $99,107,744




                                                                                                     Appendices  • 51
               Semiannual Report to Congress	                                          April 1, 2006 thru September 30, 2006




    Office of Audit
    The following chart summarizes SSA’s responses to our recommendations for the recovery or
    redirection of questioned and unsupported costs. This information is prepared in coordination with
    SSA’s management officials and is current as of September 30, 2006.


                              SSA’s Responses to OIG’s Recommendations
                       Recovery or Redirection of Questioned and Unsupported Costs

             Reports with                                                Amount            Amount
                            Questioned/             Management
       FY    Questioned                                              Collected or to be   Written-Off/         Balance
                          Unsupported Costs         Concurrence
                Costs                                                   Recovered         Adjustments

      2004        19           $1,500,781,845     $1,476,911,418        $107,030,015      $1,390,105,6341      $3,684,480

      2005        24             $374,930,433       $363,916,161        $173,530,234        $11,132,403 $184,734,508

      2006        24           $1,373,740,596     $1,204,903,048      $1,163,864,533       $128,863,519      $81,012,544

    TOTAL         67           $3,249,452,874     $3,045,730,627      $1,444,424,782      $1,530,101,556 $269,431,532

       1
        This amount includes $1,365,957,300 in adjustments that were contained in the report, Disabled Title II Beneficiaries
       with Earnings Reported on the Master Earnings File (MEF) (A-01-03-13019, 7/12/2004). We recommended that
       SSA review past cases where significant earnings are present on the MEF and no determination has been made
       regarding trial work and/or substantial gainful activity (SGA). SSA agreed, where it is cost beneficial to do so and
       as its resources permit, to review the cases with significant earnings on the MEF where no determination has been
       made regarding trial work/SGA and take action. However, SSA subsequently informed us that it would not review
       the cases.­




   Appendix F: Significant Monetary Recommendations From Prior FYs
   for Which Corrective Actions Have Not Been Completed
   There are no significant monetary recommendations from prior FYs for which corrective actions have
   not been completed.




52  •  Appendices
  April 1, 2006 thru September 30, 2006	                                SSA Office of the Inspector General




Appendix G: Significant Non-Monetary Recommendations
From Prior FYs for Which Corrective Actions Have Not Been
Completed
Follow-up of Pending Workers’ Compensation (WC): The Social Security
Administration Can Prevent Millions in Title II Disability Overpayments
(A-08-05-25132, 9/9/05)
Recommendation: We encouraged the Agency to implement the recommendations we made in our June 2003
report. Specifically, the Social Security Administration needs to (1) follow through with steps to reduce its backlog of
Title II disability cases having pending WC claims, (2) develop and implement an automated process to ensure the
Agency systematically and routinely follows up on new pending WC cases, and (3) explore systems enhancements
that would detect situations in which WC is not applicable to prevent personnel from retrieving and analyzing
cases that no longer require development.

Agency Response: SSA agreed with the recommendations.
Corrective Action: SSA will continue to pursue this initiative to the extent possible. However, SSA’s available
resources are limited and prioritized, thereby placing restraints on its ability to undertake additional efforts. SSA
submitted a proposal to the Information Technology Advisory Board (ITAB) to set up a computer matching
agreement with CMS to match their Common Working File (CWF) with information in SSA’s Master Beneficiary
Record on pending WC alert cases. (The ITAB is an inter-component Agency advisory board that evaluates systems
projects and priorities and determines which ones can be accomplished with the Agency’s limited resources.) The
CWF contains information about WC involvement after 2 years of disability entitlement and could be used to help
clear the pending WC alert cases. To date, the ITAB has not approved the proposal. The proposal will be discussed
for possible inclusion in the fiscal year 2007 ITAB.

The Social Security Administration’s Match of Disability Insurance Records with Texas
Workers’ Compensation Payment Data (A-06-05-15024, 8/5/2005)
Recommendation: We recommended that SSA pursue similar matching agreements with other States
to obtain WC information.
Agency Response: SSA agreed with the recommendation.
Corrective Action: The Workers Compensation Workgroup (WCW) has addressed the replication of the Texas
pilot in other States. The WCW is currently in the process of researching which States’ outside entities or CMS
can provide a centralized electronic database with applicable WC data elements. Items such as compatible systems
requirements and the data elements needed by SSA and gathered from Texas are being assessed. Though it appears
appropriate to focus efforts in the direction of those States identified as the 10 highest DI payment States, legal
idiosyncrasies (e.g., Florida is a reverse offset state) or systems limitations (e.g., California has no centralized
WC data) will affect the final recommendations as to which States will be best suited for a Texas-type matching
program.

SSA is still working with both Federal CMS and private entities to determine if there are any alternative
methods they can pursue to obtain WC verification.




                                                                                                       Appendices  • 53
                Semiannual Report to Congress	                                April 1, 2006 thru September 30, 2006




                Glossary of Acronyms
                      Abbreviation                                    Definition
                 ALJ                       Administrative Law Judge
                 ASAP                      Automated Standard Application for Payments
                 CDI                       Cooperative Disability Investigation
                 CMP                       Civil Monetary Penalty
                 CMS                       Centers for Medicare and Medicaid Services
                 CWF                       Common Working File
                 DDS                       Disability Determination Service
                 DHS                       Department of Homeland Security
                 DOJ                       Department of Justice
                 ECIE                      Executive Council on Integrity and Efficiency
                 ESF                       Earnings Suspense File
                 FBI                       Federal Bureau of Investigation
                 FY                        Fiscal Year
                 GAO                       Government Accountability Office
                 ICE                       Bureau of Immigration and Customs Enforcement
                 IO                        Immediate Office
                 IT                        Information Technology
                 ITAB                      Information Technology Advisory Board
                 ITIN                      Individual Taxpayer Identification Number
                 IRS                       Internal Revenue Service
                 MADCAP                    Manual Adjustment, Credit and Award Process
                 MEF                       Master Earnings File
                 MOU                       Memoranda of Understanding
                 NICMS                     National Investigative Case Management System
                 NWALIEN                   Nonwork Alien
                 OA                        Office of Audit
                 OASDI                     Old-Age, Survivors, and Disability Insurance
                 OCCIG                     Office of the Chief Counsel to the Inspector General


54 • Glossary
April 1, 2006 thru September 30, 2006	                          SSA Office of the Inspector General




  Abbreviation                                       Definition
ODAR                      Office of Disability Adjudication and Review
OI                        Office of Investigations
OIG                       Office of the Inspector General
OMB                       Office of Management and Budget
OQAPR                     Office of Quality Assurance and Professional Responsibility
ORM                       Office of Resource Management
PACS                      Performance Assessment and Communication System
PCIE                      President’s Council on Integrity and Efficiency
PSC                       Program Service Center
SEI                       Self-Employment Income
SGA                       Substantial Gainful Activity
SSA                       Social Security Administration
SSI                       Supplemental Security Income
SSN                       Social Security Number
SSNVS                     Social Security Number Verification Service
the Act                   Social Security Act
TY                        Tax Year
USPIS                     United States Postal Inspection Service
VA                        Department of Veterans Affairs
WC                        Workers’ Compensation
WCW                       Workers’ Compensation Workgroup




                                                                                                      Glossary •   55
Semiannual Report to Congress	   April 1, 2006 thru September 30, 2006
        Social Security Administration
        Office Of The Inspector General
                                                                                    How to Report Fraud
                                                                          The SSA OIG Fraud Hotline offers a means for you to
                                                                         provide information on suspected f raud, waste, and abuse.
                                                                          If you know of current or potentially illegal or improper
                                                                             activities involving SSA programs or personnel, we
                       Mission Statement                                   encourage you to contact the SSA OIG Fraud Hotline.
By conducting independent and objective audits, evaluations
and investigations, we inspire public confidence in the integrity
and security of SSA’s programs and operations and protect them                      Call	1-800-269-0271
against fraud, waste and abuse. We provide timely, useful and
reliable information and advice to Administration officials,                      Write	 Social Security Administration
Congress and the public.                                             	                   Office of the Inspector General
                                                                     	                   Attention: SSA Fraud Hotline
                        Vision and Values                            	                   P. O. Box 17768
                                                                     	                   Baltimore, MD 21235
We strive for continual improvement in SSA’s programs,
operations and management by proactively seeking new ways                            Fax	410-597-0118
to prevent and deter fraud, waste and abuse. We commit to
integrity and excellence by supporting an environment that
provides a valuable public service while encouraging employee                  Internet   www.socialsecurity.gov/oig
development and retention and fostering diversity and
innovation.                                                              To obtain additional copies of this report please visit our
                                                                                   website at www.socialsecurity.gov/oig


                                                                                           SSA Pub. No. 85-007




    Cover image courtesy of Jennifer Guzman, www.f7photography.com
Report Fraud, Waste, and Abuse

 1-800-269-0271




                                        Social Security Administration
    www.socialsecurity.gov/oig
                                    Office of the Inspector General
     SSA OIG Pub. No. 85-007
                                 Semiannual Report to Congress
    Published November 2006
                                      A Constant Purpose
                                    April 1, 2006 through September 30, 2006
